Audit Report




OIG-09-047
SAFETY AND SOUNDNESS: Material Loss Review of Suburban
Federal Savings Bank
September 11, 2009




Office of
Inspector General
Department of the Treasury
Contents

Audit Report.................................................................................................. 1

    Results in Brief ............................................................................................. 2

    Causes of Suburban’s Failure ......................................................................... 4
      Suburban Pursued an Aggressive Growth, High Risk Strategy .........................4
      Suburban’s Management and Board Did Not Establish Adequate Internal
         Controls ............................................................................................. 9

    OTS’s Supervision of Suburban .................................................................... 12
      OTS Did Not Impose Limits on Suburban’s High Concentrations
         of ADC Loans Until 2007 .................................................................... 13
      OTS Identified Repeat Internal Control Deficiencies But Did Not Ensure
         That They Were Corrected .................................................................. 14
      OTS Relied on MRBAs to Correct Suburban’s Problems But Did Not Perform
         Many Field Visits to Monitor Corrective Actions ................................... 17
      OTS Took Enforcement Action in 2007 and 2008 ..................................... 18
      OTS’s Lessons-Learned Review ............................................................... 20
      OTS Appropriately Used Prompt Corrective Action ....................................... 22

    Recommendations ........................................................................................23

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................                 26
    Appendix     2:      Background..........................................................................      29
    Appendix     3:      Glossary ..............................................................................   34
    Appendix     4:      Chronology of Significant Events ............................................             43
    Appendix     5:      OTS Suburban Examinations and Enforcement Actions..............                           48
    Appendix     6:      Prior OIG Material Loss Review Recommendations ....................                       57
    Appendix     7:      Management Response .........................................................             60
    Appendix     8:      Major Contributors to This Report ...........................................             61
    Appendix     9:      Report Distribution ................................................................      62

Abbreviations

    ADC                  acquisition, development, and construction
    C&D order            cease and desist order
    CEO                  chief executive officer
    CFO                  chief financial officer
    CLO/SVP              chief loan officer/senior vice president


                         Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)                   Page i
Contents

 CMP        civil money penalty
 FDIC       Federal Deposit Insurance Corporation
 MRBA       matters requiring board attention
 OIG        Office of Inspector General
 OTS        Office of Thrift Supervision
 PCA        Prompt Corrective Action
 ROE        report of examination
 Suburban   Suburban Federal Savings Bank
 TARP       Troubled Asset Relief Program
 TCL        Troubled Condition and Directive Letter
 TFR        Thrift Financial Report




            Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page ii
                                                                                       Audit
OIG
The Department of the Treasury
                                                                                       Report
Office of Inspector General




                  September 11, 2009

                  John E. Bowman, Acting Director
                  Office of Thrift Supervision

                  This report presents the results of our review of the failure of
                  Suburban Federal Savings Bank (Suburban), Crofton, Maryland, and
                  of the Office of Thrift Supervision’s (OTS) supervision of the
                  institution. Our review was mandated under section 38(k) of the
                  Federal Deposit Insurance Act (FDIA), as amended. OTS closed
                  Suburban on January 30, 2009 and named the Federal Deposit
                  Insurance Corporation (FDIC) as receiver. As of August 14, 2009,
                  FDIC estimated that Suburban’s failure would cost the Deposit
                  Insurance Fund $126 million.

                  Our objectives were to determine the cause of Suburban’s failure
                  and assess OTS’s supervision of the bank, including
                  implementation of the Prompt Corrective Action (PCA) provisions in
                  section 38(k). We conducted our fieldwork from March 2009
                  through July 2009 at OTS’s headquarters in Washington, DC,
                  regional office in Atlanta, Georgia, and field office in Braintree,
                  Massachusetts. We reviewed the supervisory files and interviewed
                  key officials involved in the regulatory, supervisory, and
                  enforcement matters. We also interviewed officials within FDIC’s
                  Division of Supervision and Consumer Protection and Division of
                  Resolutions and Receiverships. Appendix 1 contains a more
                  detailed description of our material loss review objectives, scope,
                  and methodology.

                  We also include several other appendices to this report. Appendix 2
                  contains background information on Suburban and OTS’s thrift
                  supervision processes. Appendix 3 is a glossary of terms used in
                  this report. Appendix 4 provides a chronology of significant



                  Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)       Page 1
               events related to Suburban and its supervision by OTS. Appendix 5
               shows examinations of Suburban by OTS and enforcement actions
               taken by OTS against Suburban from 2003 through 2008.
               Appendix 6 shows Office Inspector General (OIG)
               recommendations from material loss reviews of failed OTS-
               regulated institutions completed since April 2008.


Results in Brief
               Suburban failed primarily because of significant loan delinquencies
               and losses in speculative and high-risk acquisition, development,
               and construction (ADC) loans. Suburban pursued an aggressive
               growth strategy in ADC loans from 2003, when it transitioned
               from traditional mortgage lending into mortgage banking, until
               2007. During this period, Suburban’s ADC loan assets more than
               doubled. While pursuing this growth, Suburban’s board and
               management did not establish adequate internal controls over its
               operations and accounting systems, resulting in the failure to
               recognize, properly report, or correct the thrift’s deteriorating
               financial position. As a result, when the real estate market it served
               took a downturn in 2007, Suburban was particularly vulnerable and
               the losses ultimately led to its demise.

               OTS’s supervision did not adequately address Suburban’s problems
               early enough to prevent a material loss to the Deposit Insurance
               Fund. OTS conducted timely and regular examinations of Suburban
               and provided oversight through its off-site monitoring during the
               period reviewed from 2003 through 2008. The examinations and
               oversight identified the thrift’s problems, including concerns with
               Suburban’s aggressive growth strategy in highly concentrated,
               speculative ADC loans and weaknesses in its internal controls.
               However, Suburban did not sufficiently correct problems and OTS
               did not adequately monitor the thrift’s actions through field visits
               to ensure that corrections were made.

               OTS repeatedly recommended corrective actions through matters
               requiring board attention (MRBA). In July 2007, OTS took informal
               enforcement action with a Troubled Condition and Directive Letter
               (TCL). In March 2008, OTS took formal enforcement action when
               it issued a cease and desist (C&D) order. By then it was too late to
               prevent the thrift from failing. In 2007, OTS also considered but
               did not assess civil money penalties (CMP), deciding instead to


               Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 2
pursue them only if the thrift did not comply with the TCL and
C&D order.

We concluded that as Suburban’s capital level fell below prescribed
regulatory thresholds, OTS appropriately and timely initiated
required actions in accordance with the PCA provisions of FDIA.
Suburban fell below a well-capitalized level twice, in 2004 and in
2008. OTS did not take PCA in 2004 because Suburban merged
with another financial institution that improved Suburban’s capital
position. In November 2008, OTS took PCA that required Suburban
to file a Capital Restoration Plan and abide by various restrictions.
The thrift’s plan determined that the only solution to its
undercapitalized state was to find a merger partner. When this
effort failed, OTS took timely action to appoint FDIC as receiver.

It should be noted that OTS did conduct an internal failed bank
review of Suburban in accordance with OTS policy. OTS’s internal
review found that Suburban’s failure primarily resulted from
ineffective management and board oversight in a period of
aggressive, high-risk growth extending from 2003 to 2007. OTS’s
review concluded that it (1) did not take timely enforcement action,
(2) failed to conduct adequate follow up with Suburban to ensure
MRBAs were resolved in a timely manner, and (3) did not
effectively control asset concentration by requiring concentration
limits as a percentage of capital. Our material loss review affirmed
OTS’s internal findings and the need for earlier corrective action.

We are recommending that OTS ensure that (1) recommendations
from OTS’s internal assessment of Suburban’s failure are
implemented and that the lessons learned from the assessment are
taken into account going forward; (2) regional offices more closely
monitor and scrutinize Thrift Financial Reports (TFR), and consider
appropriate enforcement action, including CMPs, when chronic
errors are found; and (3) examiners conduct timely and
appropriately scoped field visits to thrifts with repeat problems and
elevate the supervisory response, to include enforcement action
when necessary, should the field visits find corrective action had
not been taken.

In a written response, OTS concurred with our recommendations
and committed to take necessary action to address them. OTS
issued new internal guidelines in May 2009 for Enforcement
Review Committee meetings to ensure consistent implementation
and resolution of enforcement actions. OTS also issued guidance

Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 3
             through a memorandum to thrift Chief Executive Officers in July
             2009 on asset and liability concentrations and related risk
             management practices. OTS will need to identify and record its
             other planned actions and expected completion dates in the
             Department of the Treasury Joint Audit Management Enterprise
             System.


Causes of Suburban’s Failure
             Suburban failed primarily because of significant loan delinquencies
             and losses in speculative and high-risk ADC loans. Suburban
             pursued an aggressive growth business strategy and expanded into
             high-risk ADC and nontraditional lending. While pursuing this
             strategy, Suburban’s management and board did not establish
             adequate internal controls, resulting in a failure to recognize,
             properly report, or correct the thrift’s deteriorating financial position
             until it was too late.

             Suburban Pursued an Aggressive Growth, High-Risk Strategy

             From 2003 through 2007, Suburban pursued an aggressive growth
             strategy. Asset growth was largely in ADC loan originations, which
             more than doubled from $65 million in 2003 to its highest point of
             $158 million in 2007. In July 2007, OTS imposed constraints
             through the TCL that halted Suburban’s ADC lending.

             Prior to 2003, Suburban was a family-run community thrift focused
             on residential mortgage lending and deposit services. In 2003, the
             third generation of family took control of the thrift and pursued
             aggressive growth. The new Chief Executive Officer
             (CEO)/president of the thrift (the founder’s grandson) sought to
             increase the thrift’s asset size and convert Suburban from a mutual
             bank into a publicly traded company. To achieve this, the thrift
             hired loan officers, acquired a loan production office, merged with
             another bank to add branches and capital, and added riskier loan
             products to increase profitability. These riskier loan products were
             not adequately underwritten, monitored, and controlled, and
             subsequently resulted in high delinquency rates.

             Additional Loan Officers

             In November 2001, Suburban hired a loan officer for the thrift’s
             residential construction to permanent, residential ADC, and land

             Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 4
                      loan programs. In January 2003, the thrift hired a chief loan
                      officer/senior vice president (CLO/SVP) to supervise and lead the
                      expansion of lending and mortgage banking operations. The
                      CLO/SVP subsequently hired a group of loan officers, whose
                      compensation was based on the quantity of loans they originated.
                      In March 2003, the CLO/SVP facilitated a contractual arrangement
                      between Suburban and an independent loan production office in
                      Timonium, Maryland, referred to by OTS and Suburban as
                      Timonium.

                      Suburban projected that Timonium would generate a substantial
                      volume of new mortgage loans, primarily for sale in the secondary
                      market. However, in April 2004 OTS criticized loans being
                      approved by Timonium (agency office) personnel, rather than
                      Suburban headquarters’ personnel. In a field visit report, OTS said
                      that Suburban clearly violated the intent of 12 CFR Section
                      545.96, 1 in relation to the establishment and operation of an
                      “agency office,” and had circumvented the requirement that OTS
                      review and approve the operation. Suburban had Timonium loan
                      officers drive to Suburban headquarters to approve the loans on
                      Suburban’s premises to give the appearance that loans were being
                      approved by Suburban headquarters personnel. OTS called it a
                      “charade” and required it to be stopped. Timonium ceased this
                      practice but continued to produce loans for Suburban.

                      Merger With Westview Savings Bank

                      On June 30, 2004, Suburban’s capital level fell to 9.82 percent, or
                      adequately capitalized, below the 10 percent well-capitalized
                      standard. This drop resulted from a combination of factors—asset
                      growth outpacing capital growth (see figure 1), and a shift to
                      higher risk-weighted assets such as ADC loans; and corrections of
                      errors in the calculation of the thrift’s risk- based capital ratio.
                      (Accounting errors are discussed later in the report.) In October
                      2004, Suburban merged with Westview Savings Bank (Westview),
                      based in Baltimore, Maryland. The merger added two branches,




1
 In 2003, 12 CFR Section 545.96 allowed a federal savings association, with board authorization, to
establish agencies that service and originate loans and contracts. Final loan and contract approval
authority, however, had to remain with the thrift. Such agency relationships did not require OTS
approval. In November 2004, the regulations were modified to allow the approval of loans at the agency
office.

                      Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)        Page 5
                      increased assets by $65 million, and increased capital by $10.6
                      million, enabling Suburban to regain its well-capitalized status. 2

                      Figure 1. Asset Growth vs. Total Risk-Based Capital
                                   $450                                                              16%



                        Millions
                                   $400                                                              14%
                                   $350                                                              12%
                                   $300                                                              10%
                                   $250                                                              8%
                                   $200                                                              6%
                                   $150                                                              4%
                                   $100                                                              2%
                                    $50                                                              0%
                                    $‐                                                               ‐2%
                                           2003    2004      2005   2006        2007       2008
                                                  Asset Growth       % of Total Risk based Capital

                      Source: OIG analysis of FDIC statistics on depository institutions
                      Note: The sharp increase in total risk based capital in 2004 resulted from
                      Suburban’s merger with Westview.

                      Growth in Riskier ADC and Nontraditional Mortgage Lending

                      Suburban pursued higher-risk ADC lending. As shown in figure 2,
                      ADC lending grew significantly from $65 million in 2003 to $158
                      million by September 30, 2007.




2
 Mutual banks raise capital almost exclusively through retained earnings or by merging with another
bank with more capital.

                      Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)               Page 6
Figure 2. ADC Lending from 2003-2008
            $180 




 Millions
            $160 
            $140 
            $120 
            $100 
             $80 
             $60 
             $40 
             $20 
             $‐
                    2003   2004   2005        2006     2007          2008


                                         ADC Loans


Source: OIG analysis of FDIC statistics on depository institutions

Suburban’s ADC portfolio contained multiple land lot loans (loans
for vacant lots on which to build) and speculatively built houses.
By 2008, Suburban management identified 97 percent of its ADC
lending portfolio as speculative. OTS stated in its 2007 report of
examination (ROE) for Suburban that the thrift’s ADC portfolio risk
had increased because many of its ADC borrowers lacked financial
strength, had interest reserves, or were dependent on inventory
sales to maintain adequate cash flow.

In 2003, Suburban expanded into nontraditional mortgages, such
as no income/no asset verification and stated income loans. Under
the direction of the thrift’s new CLO/SVP, the thrift loosened
underwriting standards. In 2006, nearly 73 percent of the thrift’s
$231 million residential loan portfolio was originated with less than
full documentation, including no income or asset verification loans.
The thrift also began granting residential loans to borrowers who
had lower FICO scores and higher loan-to-value ratios.

To reduce loan risk exposure, Suburban’s CLO/SVP sold
nontraditional residential mortgages and a portion of the performing
ADC loans through the thrift’s mortgage banking operation. When
demand for these loans fell in 2007, Suburban decided not to sell
some of the loans. The decision required Suburban, to reclassify


Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)          Page 7
the loans from held-for-sale to the loan portfolio in accordance with
generally accepted accounting principles (GAAP). The significance
of this accounting change was that Suburban had to write-down
the value of the loans transferred to the loan portfolio to their
estimated market value. Suburban reclassified $21.3 million in ADC
loans resulting in a $3.0 million loss and $18.2 million in second
mortgages that resulted in a $206 thousand loss.

To assess the quality of its loan portfolio, Suburban hired an
outside contractor in mid-2008. The contractor identified
underwriting and loan application process weaknesses in the
thrift’s residential mortgage loans, land lot loans, and construction
to permanent loans. In one case, a borrower had no assets (not
even a checking or savings account) and used the cash disbursed
from the loan to satisfy the cash reserves required to qualify for
the loan. In another case, a borrower used multiple aliases to
endorse her loan documents. Both of these loans went into default
without the borrower making a single payment.

High Delinquencies in Loan Portfolios

As shown in figure 3, the delinquency rates in Suburban’s loan
portfolio grew from under 2 percent in 2006 to 11 percent in
2008, when the institution was closed. By comparison, while the
same measure had risen slightly for other institutions in Suburban’s
peer group, overall, it was still under 2 percent at the end of 2008.

Figure 3. Noncurrent Loans More Than 90 Days Delinquent
  12%

  10%

   8%

   6%

   4%

   2%

   0%
        2004          2005          2006          2007           2008

                    Suburban Bank            $300‐$500 Million Thrifts

Source: OIG analysis of FDIC statistics on depository institutions



Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)       Page 8
Even more striking was the sharp rise in delinquencies in the
thrift’s ADC portfolio. As shown in figure 4, by late 2008, over
$30 million, of Suburban’s ADC loans, were delinquent.

Figure 4. ADC Loan Delinquency Rates
            $35                                                      30%


 Millions
            $30                                                      25%
            $25 
                                                                     20%
            $20 
                                                                     15%
            $15 
                                                                     10%
            $10 
             $5                                                      5%

            $‐                                                       0%
                   2004   2005     2006        2007         2008

                                   ADC Delinquency

Source: OIG analysis of Suburban internal data.

The rate of delinquency was also high in the thrift’s residential
mortgage portfolio. As of September 30, 2008, nearly $41 million
of these loans, or 18 percent, were delinquent.

Suburban’s Management and Board Did Not Establish Adequate
Internal Controls

Suburban’s management and board did not establish adequate
internal controls over operations and accounting. The thrift lacked
appropriate internal review, did not properly identify criticized
assets, and had chronic accounting deficiencies that were not
corrected. These accounting deficiencies prevented accurate and
timely account reconciliation and led to the need for numerous
amendments of Suburban’s TFRs. These areas were the subject of
OTS’s MRBAs for over 5 years, but the thrift did not implement
adequate corrections.

Lack of Appropriate Internal Review

Suburban had an inadequate internal asset review function and
lacked an internal audit function. From 2003 through 2008, OTS
repeatedly directed Suburban’s board to implement a
comprehensive internal asset review function to better monitor the


Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)    Page 9
                         credit quality of its portfolio and compliance with lending policies.
                         In this regard, OTS directed Suburban to ensure that the review
                         function monitored the ADC loan portfolio. However, the thrift
                         failed to adequately implement the function as directed by OTS.

                         Failure to Properly Identify Criticized Assets

                         Suburban did not properly identify its criticized assets, which grew
                         from $1.0 million (0.3 percent of total assets) in September 2005
                         to $64.3 million (almost 18 percent of total assets) in June 2008.
                         The majority of these criticized assets were ADC loans. Table 1
                         shows the criticized assets identified by Suburban and the
                         additional criticized assets identified by OTS in the 2007 and 2008
                         ROEs.

                         Table 1. Criticized Assets

                                                                         Additional
                                                   Identified by       Identified by
                                                      Suburban                  OTS            Total
                          2007 ROE                        $13.9                 $9.8          $23.7
                          2008 ROE                        $49.1               $15.2           $64.3
                         Source: OTS ROEs

                         In January 2008, a review of the bank’s loan portfolio performed
                         by a third party engaged by Suburban reported similar deficiencies.
                         Suburban’s management and board did not adopt the third party’s
                         recommended loan downgrades that resulted from Suburban’s
                         inadequate internal asset review. Suburban’s asset review failed to
                         identify all criticized assets.

                         OTS and Suburban’s independent auditor also reported that the
                         thrift needed to establish an internal audit function to ensure that
                         the thrift established adequate policies and procedures and internal
                         controls. In fact, the thrift’s independent auditor reported the
                         deficiency as a material weakness in connection with the audit of
                         Suburban’s June 30, 2007 financial statement. 3 In February 2007,
                         after Suburban had been non-responsive with respect to this issue
                         for several years, OTS directed in an MRBA that Suburban
                         establish a comprehensive internal audit function. In response,
                         Suburban hired a contractor to fulfill the internal audit function.
                         OTS’s 2008 examination found, however, that internal audit
                         excluded from its audit program Suburban’s troubled accounting
3
    Suburban’s fiscal year for financial reporting was July 1 to June 30.

                         Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)            Page 10
and finance function, an action which violated the provisions of the
TCL.

Failure to Correct Chronic Accounting Deficiencies

From 2003 through 2008, OTS expressed an escalating level of
concern regarding the accuracy of Suburban’s books and records
and quarterly TFR filings. Several times, OTS examiners noted
significant uncertainty about the accuracy of reported earnings and
the true financial position of the thrift. From 2004 and thereafter,
Suburban’s independent auditors also identified material
weaknesses in the thrift’s accounting practices.

OTS examiners repeatedly identified deficiencies in Suburban’s
accounting function. . Examples of what OTS examiners found
include the following – Suburban did not:

    •   reconcile general ledger accounts (including a Federal
        Reserve Bank cash account and a Federal Home Loan Bank
        overnight account),
    •   report accurate financial information on a consistent basis,
        which resulted in numerous amendments to the TFRs,
    •   maintain control over the mortgage banking operation, which
        was run solely by the CLO/SVP and operated without
        effective accounting supervision or formal accounting
        policies or procedures, and
    •   determine the accuracy of the mortgage banking data
        provided to the accounting staff by the CLO/SVP.

In its 2005 ROE, OTS characterized the lack of accurate and timely
reconciliation of general ledger accounts as “unsafe and unsound.”
The 2005 ROE also noted that the accounting staff lacked
expertise in the requirements of GAAP with respect to the hedging
in the mortgage pipeline risk. Similarly, the 2007 ROE stated the
deficiencies “clearly indicated an unsafe and unsound operating
environment and a near complete breakdown in the thrift’s internal
controls.”




Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 11
OTS’s Supervision of Suburban
                     OTS’s supervision of Suburban did not prevent a material loss to
                     the Deposit Insurance Fund. OTS conducted timely safety and
                     soundness examinations of the thrift and provided oversight
                     through its off-site monitoring from 2003 through the date of the
                     thrift’s closure. 4 OTS identified problems early at the thrift,
                     including concerns about Suburban’s aggressive growth strategy in
                     speculative ADC loans and its deficiencies in internal controls that
                     resulted in accounting and recordkeeping errors. OTS relied
                     primarily on examiner recommendations and MRBAs in the ROEs to
                     correct problems but conducted few field visits to monitor
                     corrective actions. This proved to be an ineffective supervisory
                     strategy, and problems persisted until the thrift failed in 2009.

                     OTS delayed taking informal enforcement action to address
                     problems at Suburban until 2007. At the time, it issued a TCL to
                     the thrift. At the same time, OTS initiated formal enforcement
                     action, a C&D order. However, OTS delayed issuing it until March
                     2008, waiting for Suburban’s board to consent to the action.

                     Table 2 summarizes the results of OTS’s safety and soundness
                     examinations and provides the dates of enforcement actions.
                     Appendix 5 provides details of MRBAs and corrective actions.




4
 OTS measures the 12-month and 18-month cycles from the “mail date” of the last examination to the
“start date” of the next examination. The “mail date” is the date OTS transmits the ROE to the
association. Suburban was on a 12-month cycle.

                     Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)    Page 12
         Table 2. Summary of OTS’s Examinations of and Enforcement Actions Against Suburban
                                         Safety and Soundness Examination Results
                                             Number of
                                             matters
                  Assets                     requiring      Number of
  Date started/   (in         CAMELS         board          corrective
  Date mailed     millions)   rating         attention      actions       Enforcement actions
  4/28/2003
  7/11/2003           $237    3/233222             9              8        None
  3/29/2004           $253    N/A            Field visit to review the operations of the Timonium office
  5/11/2004                                  acquired by Suburban
  8/16/2004
  11/3/2004           $263    2/232222             1              6        None
  9/29/2004           $263    2/232222       Limited off-site examination to establish the CAMELS
  9/30/2004                                  rating to be in effect for the next FDIC assessment cycle
  11/21/2005
  2/23/2006           $397    2/223222             8              0        None
  3/13/2006           $389    N/A            Limited examination to assess Suburban’s nontraditional
  5/3/2006                                   first mortgage loan portfolio
  2/20/2007           $411    3/234222             7             10        • On July 23, 2007, OTS
  7/20/2007                                                                  issued a TCL
                                                                           • OTS and Suburban enter
                                                                             into a consent order
                                                                             March 21, 2008
  6/28/2007           $413    3/234222       Limited off-site examination to establish the CAMELS
  6/28/2007                                  rating to be in effect for the next FDIC assessment cycle
  8/13/2007           $424    N/A            Limited examination to obtain additional facts concerning
  9/20/2007                                  Suburban management’s stated improvements since the
                                             preceding examination
  7/21/2008           $400    5/555544             22            37        • January 21, 2009, OTS
  1/16/2009                                                                  initiates PCA directive
  10/6/2008           $381    4/444433       Limited off-site examination to change the examination
  10/6/2008                                  ratings to more accurately reflect Suburban’s current
                                             condition
  11/7/2008           $354 5/555534          Limited off-site examination to change the examination
  11/7/2008                                  ratings to more accurately Suburban’s current condition
Source: OIG analysis of OTS data

                      OTS Did Not Impose Limits on Suburban’s High Concentration of
                      ADC Loans Until 2007

                      Although OTS examiners reported growth in Suburban’s
                      speculative ADC loans beginning in 2003 and again in 2005, OTS
                      did not report the need for concentration limits until 2007. By then,
                      the thrift had a high concentration of these loans in its portfolio. In
                      the 2007 ROE, OTS reported that Suburban’s balance of ADC
                      loans represented just over 30 percent of total assets and 393
                      percent of total risk-based capital.


                      Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)         Page 13
In 2007, OTS directed Suburban management, through an MRBA,
to comprehensively review its ADC loan portfolio. In July 2007,
OTS issued a TCL to Suburban that prohibited it from granting any
more ADC loans. At the time, examiners were particularly
concerned with the slowdown in the housing market and the
inability of borrowers to independently carry such debt.

OTS examiners for Suburban told us that it was difficult to limit
concentrations due to the lack of guidance. Regulatory guidance
available at the time set only general limitations for loan
concentrations; it did not set specific numeric thresholds, such as
percentage of capital. This made it difficult for examiners to assess
whether institutional limitations were appropriate. Examiners told
us that regulatory guidelines for loan concentrations were needed.

To address the need for more guidance on concentration limits, in
July 2009 OTS issued guidance to thrifts on asset and liability
concentrations and related risk management practices. The
guidance re-emphasized to financial institutions important risk
management practices and encouraged institutions to revisit their
existing concentration policies in light of the current economic
environment. Under the guidance, OTS examiners are to review
and scrutinize higher risk concentrations and pursue appropriate
corrective or enforcement action when an institution does not
maintain appropriate concentration limits or takes excessive risks.
Specifically, OTS will monitor any institution with a concentration
that exceeds 100 percent of core capital plus the Allowance for
Loan and Lease Losses (ALLL).

OTS Identified Repeat Internal Control Deficiencies But Did Not
Ensure That They Were Corrected

From 2003 through 2008, OTS repeatedly identified internal
control deficiencies at Suburban, mostly in the accounting and
recordkeeping systems, and reported them in the ROEs. OTS
examiners found accounts out of balance, ineffective accounting
supervision and financial controls, significant uncertainty with the
thrift’s reported financial information, and inaccurate TFRs, which
were often amended by the thrift. OTS relied on MRBAs in the
ROEs to correct these deficiencies, though it considered but ruled
out CMPs against the thrift’s board and management in 2007. This
was an ineffective strategy. Suburban’s response to the MRBAs
was insufficient to correct problems. Although Suburban employed
three Chief Financial Officers (CFO) between 2003 and 2006 and

Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 14
re-organized the accounting department several times, the thrift’s
actions did not eliminate the internal control deficiencies.

OTS’s 2003 examination found multiple accounting deficiencies,
including Suburban’s failure to charge off delinquent loans, failure
to charge off unreconciled suspense account items as directed by
examiners in the previous examination, and repeat loan to one
borrower (LTOB) recordkeeping problems.

OTS’s August 2004 examination continued to note that accounts
were not being reconciled in a timely manner. The examiners held
discussions with Suburban’s Treasurer who promised corrective
actions, but did not include MRBAs or corrective actions in the
examination report.

OTS’s 2005 examination found multiple general ledger accounts
out of balance. Suburban’s management attempted to quantify the
amount of items that needed to be reconciled, but at the close of
the examination was unsuccessful. Examiners found these
continuing issues to be of significant regulatory concern and
reflective of an unsafe and unsound internal control environment.
Examiners also found during the 2005 examination a lack of
effective accounting supervision and financial controls over the
mortgage banking operation.

Examiners remained concerned about the thrift’s accounting
function and internal controls through the 2007 examination. OTS
reported significant uncertainty about the reliability of reported
financial information. OTS also reported that completion of the
thrift’s fiscal year 2006 independent audit had been delayed
because of internal control environment deficiencies. Furthermore,
OTS reported that in response to concerns cited in Suburban’s
fiscal years 2004 and 2005 independent audits, Suburban engaged
a consulting firm in March 2006 to help management reconcile out-
of-balance accounts, restructure the accounting department, and
establish an adequate system of internal controls. Part of the
restructuring included hiring a new CFO in June 2006.

OTS’s 2008 ROE stated that Suburban’s CEO/president, CFO/SVP,
and board had not managed and directed the thrift in a satisfactory
manner, resulting in the thrift’s poor financial condition and
impending insolvency. Accounting and financial reporting
difficulties continued at the thrift, resulting in inaccurate financial
reporting, numerous audit adjustments, and another prolonged

Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 15
independent audit for fiscal year 2008. The CFO had not managed
the accounting department effectively and the CEO/president and
board had not initiated appropriate steps to address this serious
problem, reflecting an inability to resolve the unsafe and unsound
condition.

The 2008 ROE also stated that Suburban had engaged a consulting
firm to perform a comprehensive internal audit of the thrift in
response to OTS’s 2007 ROE, which had reported that the thrift
needed an internal audit function. Suburban’s Audit Committee
restricted the thrift’s internal audit department and directed the
consulting firm to not review finance and accounting because of
the problems in that area. The consulting firm was instead directed
to provide assistance in a limited area and found the records were
not auditable because they were in such disarray and in its words a
“total mess.” This confirmed OTS’s findings, as the thrift’s finance
and accounting practices had been the subject of MRBAs from
previous examinations.

Additionally, Suburban amended its TFR filings nine times from
September 2007 through June 2008, to correct multiple reporting
errors. The most significant amendment was in October of 2008,
when OTS required thrift management to increase the reported net
loss in its TFR from $5.5 million to $22.7 million for the 6-month
period ending June 30, 2008. This adjustment sharply decreased
core and risk-based capital ratios from 6.7 percent to 2.3 percent
and from 10.9 percent to 4.4 percent, respectively.

Table 3 shows the total number of amendments and line changes
to Suburban’s TFRs.

Table 3. TFR Amendments by Suburban
 TFR cycle                     Total amendments made          Line item changes
 September 2007                                        2                 >100
 December 2007                                         2                  >50
 March 2008                                            2                 >100
 June 2008                                             3                  >15
Source: OTS’s 2008 ROE for Suburban



In 2007, OTS’s Southeast Region considered, but ultimately
decided against, using its statutory authority to assess a CMP
against Suburban’s board and management for the serious and

Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)         Page 16
                         significant deficiencies found including the failure to file accurate
                         TFRs. 5 If it had decided to go forward with a CMP, the cost to
                         Suburban could be as high as $1.1 million, or 1 percent of total
                         assets. According to OTS’s Southeast regional counsel, a CMP is
                         an option to get cooperation from the board and show how serious
                         OTS is. OTS’s Southeast regional counsel opposed a CMP against
                         Suburban because she considered CMPs as more of a punitive
                         measure used to correct attitude problems. OTS’s Southeast
                         regional officials opposed assessing a CMP against Suburban in
                         2007. The officials considered a CMP to be an option after using
                         other enforcement actions. We find it hard to believe that OTS
                         would not have wanted to assess a CMP against Suburban for its
                         misleading TFR financial reporting, especially in light of the thrift’s
                         long-term pattern of significant accounting and financial reporting
                         deficiencies, as well as its ignoring OTS’s directives in ROEs to
                         correct these deficiencies.

                         OTS Relied on MRBAs to Correct Suburban’s Problems But Did Not
                         Perform Many Field Visits to Monitor Corrective Actions

                         In addition to annual comprehensive examinations, OTS may
                         conduct interim, limited examinations, referred to as field visits, to
                         determine if management has taken action to correct items of
                         concern noted during the annual examinations. The OTS
                         Examination Handbook states that field visits (limited examinations)
                         may be conducted to ensure a thrift is taking needed corrective
                         actions in a timely manner. According to OTS officials, field visits
                         are risk focused and intended to cover the areas of significant risk.
                         Despite the many MRBAs issued to Suburban in the ROEs for 2003
                         to 2008, OTS conducted only three field visits, in 2004, 2006, and
                         2007.

                         In 2003, OTS’s Southeast regional official determined that a field
                         visit to Suburban should be conducted to assess actions taken to
                         correct deficiencies reported in the 2003 examination and to
                         review the thrift’s Timonium mortgage banking operation. The field
                         visit conducted in 2004 was limited to just a review of Timonium.
                         OTS accepted without verification written responses from
                         Suburban with respect to other corrective actions, such as
                         improving the underwriting and implementing a formal internal
                         asset review function.


5
    The Financial Institutions Regulatory and Interest Rate Control Act of 1978

                         Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 17
                      In 2005, OTS conducted a full-scope examination of Suburban and
                      found that lack of timely reconciliation of accounts was of
                      significant regulatory concern and reflective of an unsafe and
                      unsound internal control environment. OTS identified eight MRBAs
                      related to internal control deficiencies. A field visit in 2006 covered
                      Suburban’s nontraditional mortgages but did not cover action(s)
                      taken with respect to the eight MRBAs. No follow-up was done on
                      the MRBAs until 2007.

                      OTS found a significant increase in criticized assets that were
                      reported incorrectly in Suburban’s TFRs and weaknesses with the
                      thrift’s monitoring and identification of problem loans.

                      OTS Took Enforcement Action in 2007 and 2008

                      In 2007, OTS took informal enforcement action, issuing a TCL to
                      Suburban. In 2008, OTS took formal enforcement action against
                      Suburban through a C&D order. The actions came too late to
                      prevent the thrift’s failure. According to OTS, it did not take
                      enforcement action sooner in order to provide the thrift an
                      opportunity to correct its problems.

                      OTS’s 2003 examination found a number of areas of supervisory
                      concern in asset quality and management, which resulted in
                      assignment of a CAMELS composite rating of 3 to Suburban. The
                      examination found less than satisfactory performance of
                      management and the board, as well as repeat internal control
                      deficiencies from the previous examination. OTS guidance in effect
                      at the time provided for some type of enforcement action to be
                      taken if an institution receives a CAMELS composite rating of 3.
                      Whether the action taken was informal or formal depended on the
                      cooperation, integrity, and commitment of management to address
                      problems identified. 6 OTS regional officials decided against taking
                      enforcement action at the time because a field visit was planned in
                      6 months and they wanted to allow Suburban an opportunity to
                      correct the deficiencies. The officials also cited a reluctance to take
                      enforcement action because it was believed that such action would
                      threaten the thrift’s planned conversion from mutual to stock
                      ownership. OTS further believed that Suburban’s desire to avoid
                      formal supervisory action may result in management taking timely
                      corrective action. Given the number, seriousness, and
                      repetitiveness of the deficiencies identified in the 2003

6
    OTS Regulatory Handbook 370.3, June 2003

                      Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 18
                       examination, we believe that OTS erred in not taking strong action
                       following the 2003 examination.

                       In 2005, OTS continued to identify significant weaknesses in
                       Suburban’s management and earning components. Many of these
                       were repeat conditions from prior examinations. According to the
                       OTS Regulatory Handbook, conditions that remain uncorrected
                       presume that an enforcement action should be taken to ensure
                       corrections are made. The 2005 ROE noted concerns about the
                       thrift’s internal control environment, accuracy of accounting
                       records, and reliability of reported financial results. The examiners
                       wrote that continuing issues with the timely reconciliation of
                       accounts were of significant regulatory concern and made it
                       questionable whether the reported earnings were a reasonable
                       reflection of actual performance. Despite these concerns, OTS
                       rated Suburban a CAMELS composite 2 in the ROE transmitted on
                       February 23, 2006. 7

                       In 2007, examiners found that conditions at Suburban had
                       deteriorated further, and OTS downgraded Suburban’s CAMELS
                       composite rating to 3. OTS regional officials met in July 2007 to
                       discuss the findings of the February 2007 ROE and the appropriate
                       supervisory response. Based on serious concerns about Suburban’s
                       asset quality, the Southeast Region decided to issue a TCL as well
                       as issue a C&D and possible CMP against the individual board
                       members.

                       The 2007 TCL directed Suburban to not (1) originate any new ADC
                       Loans; (2) renew any non-performing ADC loans; (3) enter into
                       third party contracts; and (4) engage in any new business activity,
                       lending program, or business line.

                       Beginning in July 2007, OTS engaged in a lengthy negotiation
                       process to obtain consent by Suburban’s board to a C&D order.
                       OTS generally attempts to obtain consent to an enforcement action
                       from an association's board of directors. Although rare, OTS may
                       not seek consent where an immediate cessation to an activity is
                       necessary to halt harm to an association. According to OTS’s
                       Southeast regional counsel, the board resisted consenting to a C&D

7
  The ROE also included an incorrect CAMELS component rating for Earnings of 2. OTS’s Southeast
Assistant Regional Director had sent an e-mail dated February 16, 2006 to the field manager, stating
that he had determined the component rating should be changed to 3. Because of an apparent
administrative oversight, the ROE was mailed with the incorrect component rating.

                       Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)       Page 19
                       because of employment contract issues and Suburban’s loan
                       officer compensation, which included incentives related to loan
                       production.

                       According to OTS officials , OTS generally attempts to obtain
                       consent to a C&D in order to ensure the board of directors
                       recognizes the extent of the problem and to avoid protracted legal
                       proceedings. In the case of Suburban, OTS reached resolution with
                       the board and OTS issued a C&D on March 21, 2008, nearly 9
                       months later. We believe that given Suburban’s pattern of
                       ineffective action or non-response to OTS’s supervision over the
                       years, this is one of those rare circumstances when the lengthy
                       consent process should not have been allowed, and OTS should
                       have issued a C&D in a more timely manner.

                       OTS’s Lessons-Learned Review

                       In accordance with OTS policy, an internal review of Suburban’s
                       failure was performed. 8 The review, completed in April 2009,
                       found that Suburban’s failure resulted primarily from ineffective
                       management and a lack of board of director oversight in a period of
                       aggressive, high-risk growth extending from 2003 to 2007. A
                       critical failure of management and the board was not imposing
                       constraints on the growth of the high-risk loan portfolio, either in
                       terms of total assets or the capital base necessary to support the
                       expansion.

                       The review identified several lessons learned in its report:

                       • Timely enforcement actions should be taken to address
                         deficiencies identified when an institution receives a CAMELS
                         composite rating of 3.

                       • Concentration limits should be established as a percentage of
                         capital for thrifts with excessive asset concentrations.

                       The OTS report made the following recommendations:


8
  OTS policy requires that an internal assessment be conducted when a thrift fails. That assessment,
referred to as an internal failed bank review, is performed by staff independent of the region responsible
for supervisory oversight of the failed thrift. The report is reviewed and signed by OTS’s deputy director
of examinations, supervision, and consumer protection. OTS’s Northeast Region initiated an internal
review of Suburban following its failure in January 2009. The scope of the review focused primarily on
OTS’s supervision from January 2000 to January 2009.

                       Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)         Page 20
                     Enforcement Action

                     •   OTS should take timely enforcement action to address
                         deficiencies identified when an institution receives a CAMELS
                         composite rating of 3.

                     •   When board-directed corrective action has not been
                         implemented within two consecutive examinations, an
                         enforcement action should be considered.

                     Material Internal Control Weaknesses

                     • When OTS identifies material internal control weaknesses
                       inclusive of substantive books and records concerns, the agency
                       should pursue informal enforcement action, at a minimum. If the
                       thrift does not implement effective measures to correct the
                       identified weaknesses within a reasonable period of time, the
                       agency should consider formal enforcement action.

                     Enforcement Review Committee Meetings

                     • OTS should amend internal policy guidance to require
                       participation of appropriate field staff (including the Field
                       Manager or examiner-in-charge) in Supervisory Action Committee
                       meetings. 9

                     Oversight and Control of Asset and Liability Concentrations

                     • OTS should clearly communicate to the industry and examination
                       staff its expectation that concentration measurements and limits
                       be established for both individual and aggregate high-risk asset
                       and liability positions. In addition, OTS should emphasize
                       establishing a sound risk management framework to identify,
                       measure, and control the level of risk commensurate with the
                       size and complexity of the institution.

                     In response to the recommendations, OTS issued new internal
                     guidelines on May 1, 2009, for Enforcement Review Committee
                     meetings to ensure consistent, fair, and appropriate implementation
                     of, and resolution of, enforcement actions. Also, in July 2009, OTS
                     released a CEO memorandum on asset and liability concentrations
                     and related risk management practices, initially in response to a
9
 Supervisory Action Committee is comprised of OTS Southeast Region management who determine
whether enforcement action should be taken against a thrift.

                     Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 21
separate lessons learned of another thrift failure, but also applicable
to Suburban.

Our material loss review affirms the findings of OTS’s internal
review.

OTS Appropriately Used Prompt Corrective Action

The purpose of PCA is to resolve the problems of insured
depository institutions at the least possible long-term loss to the
Deposit Insurance Fund. PCA provides federal banking agencies
with the authority to take certain actions when an institution’s
capital drops to specified levels. PCA also gives regulators
flexibility to discipline institutions based on criteria other than
capital levels to help reduce Deposit Insurance Fund losses caused
by unsafe and unsound practices.

Suburban fell below the well-capitalized regulatory standard twice
between 2004 and 2008. During the 2004 examination, Suburban
was required to file an amended TFR causing its total risk-based
capital ratio to fall below the 10 percent well-capitalized regulatory
standard to 9.82 percent. Suburban’s transition from a PCA
category of well-capitalized to adequately capitalized represented a
condition that under PCA would require OTS to issue a PCA notice
and impose restrictions on the thrift. OTS did not take PCA after
the 2004 examination because Suburban merged with Westview
Savings Bank shortly afterward. The merger resulted in an infusion
of capital that increased Suburban’s total risk-based capital ratio
from 9.82 percent to 13.50 percent. We concluded that OTS acted
appropriately in this circumstance.

Suburban again fell below well-capitalized when OTS notified
Suburban of its critically undercapitalized status on November 7,
2008. OTS’s PCA notice required Suburban to file a Capital
Restoration Plan (CRP) with OTS no later than November 21,
2008, and abide by various PCA restrictions applicable to critically
undercapitalized institutions. Suburban filed a CRP that provided for
it to (1) continue to seek an acquirer through a merger with a
mutual or through a voluntary supervisory conversion, (2) maintain
effective underwriting practices, and (3) continue to enhance risk
management practices to address credit problems.

The CRP indicated four entities were interested in acquiring the
thrift. OTS conducted a meeting with one potential investor shortly

Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 22
           after the plan was filed. The investor executed a letter of intent
           with Suburban on December 31, 2008, but the proposal raised
           supervisory issues that made prompt resolution unlikely. On
           January 12, 2009, OTS notified Suburban of conditional approval
           of the CRP as well as OTS’s intention to issue a PCA directive. On
           January 21, 2009, OTS issued the PCA directive which required
           Suburban to comply with its CRP, find a merger partner, and
           achieve an adequately capitalized status. Acting on behalf of the
           board and management of the thrift, on January 23, 2009,
           Suburban’s CEO/president executed a stock purchase agreement
           with the potential investor. However, the stock purchase
           agreement was conditioned on the Department of the Treasury’s
           approval of the proposed successor thrift for Troubled Asset Relief
           Program (TARP) funds. The investor’s attorney also sent letters to
           the OTS Director requesting a 30-day delay, to March 1, 2009, for
           appointing FDIC as receiver. OTS informed the investor that the
           proposed transaction was not feasible as the proposal did not
           include sufficient capital to address Suburban’s problems.
           Suburban was informed on January 27, 2009 that OTS would not
           delay the planned receivership and on January 30, 2009, OTS
           appointed FDIC as receiver. We concluded that OTS acted
           appropriately in this circumstance.

Recommendations

           Our material loss review of Suburban is the sixth such review we
           have performed of failed OTS-regulated financial institutions during
           the current financial crisis. Appendix 6 lists the prior completed
           material loss reviews and our associated recommendations. OTS
           management agreed with the prior recommendations and has taken
           or is taking corrective actions to address them. In particular, prior
           recommendations have addressed the need to more closely review
           and monitor thrifts with excessive high-risk concentrations, which
           Suburban had with its ADC loans.

           We recommend that the Director of OTS ensure that:

              1. The recommendations from OTS’s internal assessment of the
                 Suburban failure are implemented and that the lessons
                 learned from the assessments are taken into account going
                 forward.




           Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 23
   2. Regional offices more closely monitor and scrutinize the TFR
      amendments made by institutions for accuracy and consider
      appropriate action where chronic errors are found, including
      enforcement action and assessment of CMPs.

   3. Regional offices ensure examiners conduct timely and
      adequately scoped field visits to determine whether thrifts
      with repeat problems have taken appropriate corrective
      action. In the event that the field visits find that corrective
      action has not been taken, examiners should be instructed to
      elevate the supervisory response, including the taking of
      enforcement action when necessary.

       Management Response

      OTS concurred with our recommendations, and will take
      necessary action to address them. OTS noted that it has
      already addressed recommendations from its internal failed
      bank review. OTS issued new internal guidelines in May 2009
      for Enforcement Review Committee meetings to ensure
      consistent implementation and resolution of enforcement
      actions, and issued a CEO memorandum in July 2009 on
      asset and liability concentrations and related risk management
      practices.

       OIG Comment

      OTS will need to identify its planned actions and establish
      completion dates for these actions in the Department of the
      Treasury, Joint Audit Management Enterprise System.

                                  * * * * *
We would like to extend our appreciation to OTS for the
cooperation and courtesies extended to our staff during the audit.
If you have any questions, please contact me at (617) 223-8640 or
Sharon Torosian, Audit Manager, at (617) 223-8642. Major
contributors to this report are listed in appendix 8.



/s/
Donald P. Benson
Audit Director


Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 24
                        Appendix 1
                        Objectives, Scope, and Methodology




                        Our objectives were to determine the cause of Suburban Federal
                        Saving Bank’s (Suburban) failure and assess the bank’s supervision
                        by the Office of Thrift Supervision (OTS). We conducted this
                        material loss review of Suburban Federal Savings Bank, Crofton,
                        Maryland, in response to our mandate under section 38(k) of the
                        Federal Deposit Insurance Act, as amended. 10 This section provides
                        that if a Deposit Insurance Fund incurs a material loss with respect
                        to an insured depository institution, the inspector general for the
                        appropriate federal banking agency is to prepare a report to the
                        agency, which shall

                        •    ascertain why the institution’s problems resulted in a material
                             loss to the insurance fund;
                        •    review the agency’s supervision of the institution, including
                             implementation of the Prompt Corrective Action provisions of
                             section 38; and
                        •    make recommendations for preventing any such loss in the
                             future.

                        Section 38(k) defines a loss as material if it exceeds the greater of
                        $25 million or 2 percent of the institution’s total assets. The law
                        also requires the inspector general to complete the report within
                        6 months after it becomes apparent that a material loss has been
                        incurred.

                        We initiated a material loss review of Suburban based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC). As
                        of August 14 2009, FDIC estimated that Suburban’s failure would
                        cost the Deposit Insurance Fund $126 million.

                        To accomplish our review, we conducted fieldwork at the OTS’s
                        headquarters in Washington, D.C.; regional office in Atlanta,
                        Georgia; and field office in Braintree, Massachusetts. We
                        interviewed officials with FDIC’s Division of Supervision and
                        Consumer Protection at its regional office in New York, New York,
                        and at its field office in Baltimore, Maryland. We also interviewed
                        officials with FDIC’s Division of Resolutions and Receiverships in



10
     12 U.S.C. § 1831o(k).

                        Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 25
Appendix 1
Objectives, Scope, and Methodology




Dallas, Texas. While in Dallas, we reviewed selected Suburban
records in FDIC’s possession.

To assess the adequacy of OTS’s supervision of Suburban, we
determined (1) when OTS first identified safety and soundness
problems at the thrift, (2) the gravity of the problems, and
(3) OTS’s supervisory response to get the thrift to correct the
problems. We also determined whether OTS (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we did the following:

•   We reviewed OTS supervisory files and records for Suburban
    from 2003 through 2009. We choose 2003 as the starting
    point for our detailed review once we ascertained that this was
    the year Suburban embarked on a strategy of aggressive
    growth. We analyzed examination reports, supporting
    workpapers, and related supervisory and enforcement
    correspondence. We performed these analyses to gain an
    understanding of the problems identified, the approach and
    methodology OTS used to assess the thrift’s condition, and the
    regulatory action used by OTS to compel thrift management to
    address any deficient conditions. In assessing OTS’s
    supervisory actions with respect to Suburban, we considered
    internal OTS guidance and authorities provided by the Federal
    Deposit Insurance Corporation Improvement Act, 12 U.S.C. §
    1820(d).

•   We interviewed and discussed various aspects of the
    supervision of Suburban with OTS management officials and
    examiners to obtain their perspective on the thrift’s condition
    and the scope of the examinations.

•   We interviewed FDIC officials who monitored Suburban for
    federal deposit insurance purposes up to its failure, implemented
    the receivership process once OTS appointed FDIC as receiver,
    and ran the thrift’s operations under FDIC’s conservatorship.

•   We selectively reviewed Suburban documents that had been
    taken by FDIC and inventoried by FDIC Division of Receivership

Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 26
Appendix 1
Objectives, Scope, and Methodology




    and Resolution personnel. We identified from FDIC’s inventory
    list those documents for our review that were most likely to
    shed light on the reasons for the thrift’s failure and OTS’s
    supervision of the institution.

We conducted our fieldwork from March 2009 through July 2009.
We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 27
                       Appendix 2
                       Background




                       Suburban, FSB, History

                       Founded in 1954 by a local developer, Suburban Federal Savings
                       Bank (Suburban) of Crofton, Maryland, was a mutual chartered
                       thrift focused primarily on traditional single-family mortgage
                       lending. Leadership was kept within the founder’s family. In 1972,
                       the thrift had $12 million in assets; that year, the founder’s son
                       became a thrift employee and expanded the thrift to five branches.

                       In the 1980’s, Suburban became a third generation family business
                       when the founder’s grandson became a thrift employee. The
                       grandson gradually took on more prominent roles within the thrift.
                       Finally by December 2003, he became chief executive officer
                       (CEO). Under his direction, Suburban began a lending program that
                       included reduced documentation and interest-only loans and the
                       thrift initiated a mortgage banking operation. Suburban also
                       expanded its acquisition, development and construction loan (ADC)
                       and land lot loan programs.

                       In 2003, Suburban hired a chief loan officer/senior vice president
                       (CLO/SVP) to oversee the thrift’s entire lending operation. The
                       CLO/SVP also developed the thrift’s mortgage banking operation,
                       primarily through the acquisition of the Timonium mortgage
                       production office.

                       In 2003, OTS expressed concerns about the financial impact from
                       the combined level of compensation and benefits being provided to
                       the founder’s son and grandson. Because of this concern, OTS
                       directed Suburban’s board in the 2003 report of examination (ROE)
                       to review all forms of compensation for compliance with existing
                       interagency guidelines. 11 The following year, OTS stated in its ROE
                       that the 2004 examination found that the compensation package
                       for these individuals remained generous; however, the ROE noted
                       that the board determined that Suburban was in compliance with
                       the interagency guidelines.


11
  Appendix A to 12 C.F.R. Part 570, Interagency Guidelines Establishing Standards For Safety and
Soundness, states that excessive compensation is prohibited as an unsafe and unsound practice if it
could lead to material financial loss to an institution. Compensation is considered excessive when it is
unreasonable and disproportionate to the services performed considering such factors as compensation
practices at comparable institutions, and the financial condition of the institution.

                       Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)         Page 28
Appendix 2
Background




In September 2004, Suburban merged with Westview Savings
bank, a $70 million institution with two branches and a strong
capital position. After the merger the thrift remained a mutual
savings bank. Just prior to the merger, Suburban’s capital level
dropped from well-capitalized to adequately capitalized. The merger
brought Suburban’s capital level back to well-capitalized, allowing
Suburban to continue underwriting ADC loans.

As part of Suburban’s new business strategy, the thrift made plans
in 2003 to convert from a mutual to a stock institution. However,
the initial public offering was repeatedly postponed due to
accounting and recordkeeping difficulties, and was cancelled when
Office of Thrift Supervision (OTS) issued a notification of troubled
condition status to Suburban in July 2007.

On July 20, 2007, OTS completed a safety and soundness
examination and assigned the thrift a CAMELS composite rating of
3. The examination found significant asset deterioration, repeat
internal control and accounting issues. As a result, OTS issued
Suburban a Troubled Condition and Directive Letter on July 23,
2007, that, among other things, prohibited the thrift from
underwriting new ADC loans. On March 21, 2008, OTS issued the
thrift a cease and desist order order which, in addition to the
directives in the letter, contained supplemental directives.

On November 5, 2008, Suburban reported that it was critically
undercapitalized in its September 30, 2008 Thrift Financial Report.
OTS officially notified Suburban of its critically undercapitalized
status and required the board to file a Capital Restoration Plan with
OTS. As part of the plan, Suburban solicited potential buyers but
was unable to sell the thrift before the receivership action
scheduled for January 30, 2009. A request by a potential investor
to delay the planned receivership action was denied by OTS.

On January 30, 2009, OTS closed Suburban and appointed the
Federal Deposit Insurance Corporation (FDIC) as receiver. FDIC
subsequently sold the thrift in a whole bank transaction to Essex
bank of Tappahannock, Virginia. At the time of closing, Suburban
had total assets of $353 million and total deposits of $302 million.




Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 29
Appendix 2
Background




Appendix 4 contains a chronology of significant events regarding
Suburban.

Types of Examinations Conducted by OTS

OTS conducts various types of examinations including safety and
soundness, compliance, and information technology.

OTS must conduct full-scope, onsite examinations of insured thrifts
with assets over $250 million, as in the case of Suburban, once a
year. OTS is permitted to conduct examinations of thrifts with
assets less than $250 million on an 18-month cycle if certain
criteria are met. Limited examinations are also conducted under
certain circumstances to ensure the thrift’s compliance with certain
conditions.

During a full-scope examination, examiners rate all CAMELS
components. OTS then assigns each thrift a composite rating
based on its assessment of the overall condition and level of
supervisory concern.

Enforcement Actions Available to OTS

OTS performs various examinations of thrifts that result in the
issuance of reports of examinations (ROE) identifying areas of
concern. OTS uses informal and formal enforcement actions to
address violations of laws and regulations and to address unsafe
and unsound practices.

Informal Enforcement Actions

When a thrift’s overall condition is sound, but it is necessary to
obtain written commitments from a thrift’s board or management
to ensure that it will correct identified problems and weaknesses,
OTS may use informal enforcement actions. OTS commonly uses
informal actions for problems in

•   well or adequately capitalized thrifts,
•   thrifts with a 3-rating with strong management, and
•   thrifts with a CAMELS composite rating of 1 or 2.


Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 30
Appendix 2
Background




Informal actions notify a thrift’s board and management that OTS
has identified problems that warrant attention. A record of informal
action is beneficial in case formal action is necessary later.

If a thrift violates or refuses to comply with an informal action,
OTS cannot enforce compliance in federal court or assess civil
money penalties for noncompliance. However, OTS may initiate
more severe enforcement action against a noncompliant thrift. The
effectiveness of informal action depends in part on the willingness
and ability of a thrift to correct deficiencies that OTS identifies.

Informal enforcement actions include supervisory directives and
board resolutions.

Formal Enforcement Actions

Formal enforcement actions are enforceable under the Federal
Deposit Insurance Act, as amended. They are appropriate when a
thrift has significant problems, especially when there is a threat of
harm to the thrift, depositors, or the public. OTS is to use formal
enforcement actions when informal actions are considered
inadequate, ineffective, or otherwise unlikely to secure correction
of safety and soundness or compliance problems.

OTS can assess civil money penalties against thrifts and individuals
for noncompliance with a formal agreement or final orders. OTS
can also request a federal court to require the thrift to comply with
an order. Unlike informal actions, formal enforcement actions are
public.

Formal enforcement actions include cease and desist orders, civil
money penalties, and Prompt Corrective Action directives.

OTS Enforcement Guidelines

Considerations for determining whether to use informal action or
formal action include the following:

•   the extent of actual or potential damage, harm, or loss to the
    thrift because of the action or inaction;



Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 31
Appendix 2
Background




•   whether the thrift has repeated the illegal action or unsafe or
    unsound practice;
•   the likelihood that the conduct may occur again;
•   the thrift’s record for taking corrective action in the past;
•   the capability, cooperation, integrity, and commitment of the
    thrift’s management, board, and ownership to correct identified
    problems;
•   the effect of the illegal, unsafe, or unsound conduct on other
    financial institutions, depositors, or the public;
•   the examination rating of the thrift;
•   whether the thrift’s condition is improving or deteriorating;
•   the presence of unique circumstances;
•   the extent to which the thrift’s actions were preventable; and
•   the supervisory goal OTS wants to achieve.




Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 32
                    Appendix 3
                    Glossary




80/20 loans                         A loan type that requires no borrower down payment
                                    or mortgage insurance, for this fully financed loan,
                                    which is written as two separate loans of 80 percent
                                    and 20 percent.

Acquisition, development            A loan made for the purpose of acquiring raw land,
and construction                    the development of that raw land into individual
                                    building lots, and the construction of houses on those
                                    individual developed building lots. One loan is made
                                    for the purpose of taking a project all the way from
                                    the raw land to the completed house, ready for sale.
                                    The loans are almost always made in connection with
                                    what in the end will be residential property.

Allowance for loan and              A valuation reserve established and maintained by
lease losses                        charges against the financial institution’s operating
                                    income. As a valuation reserve, it is an estimate of
                                    uncollectible amounts that is used to reduce the book
                                    value of loans and leases to the amount that is
                                    expected to be collected. These valuation allowances
                                    are established to absorb unidentified losses inherent
                                    in the institution’s overall loan and lease portfolio.

CAMELS                              An acronym for the performance rating components:
                                    Capital adequacy, Asset quality, Management
                                    administration, Earnings, Liquidity, and Sensitivity to
                                    market risk. Numerical values range from 1 to 5, with
                                    1 being the highest rating and 5 representing the
                                    worst-rated banks.

Capital restoration plan            A capital restoration plan (CRP) is submitted to the
                                    appropriate federal banking agency by any
                                    undercapitalized insured depository institution. A CRP
                                    specifies the steps the insured depository institution
                                    will take to become adequately capitalized, the levels
                                    of capital to be attained during each year in which the
                                    plan will be in effect, how the institution will comply
                                    with the restrictions or requirements then in effect,
                                    the types and levels of activities in which the



                    Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 33
                   Appendix 3
                   Glossary




                                   institution will engage, and any other information that
                                   the federal banking agency may require.

Cease and desist order             A type of OTS formal enforcement action. A C&D
                                   order normally requires the thrift to correct a violation
                                   of law or regulation, or an unsafe or unsound practice.
                                   OTS may issue a C&D order in response to violations
                                   of federal banking, securities, or other laws by thrifts
                                   or individuals, or if it believes that an unsafe and
                                   unsound practice or violation is about to occur.

Civil money penalties              Money penalties assessed for the violation of any law
                                   or regulation. A Tier 1 penalty of up to $5,500 per
                                   day may be assessed for most violations. A Tier 2
                                   penalty increases to $27,500 per day if a party, for
                                   example, commits a violation or recklessly engages in
                                   an unsafe or unsound practice and causes more than
                                   minimal loss to the institution. If the party knowingly
                                   commits a violation or an unsafe or unsound practice
                                   that causes substantial loss to the institution, a Tier 3
                                   penalty of the lessor of $1,100,000 or 1 percent of
                                   total institution assets may be assessed. These
                                   penalties are assessed not only to punish the violator
                                   according to the degree of culpability and severity of
                                   the violation, but also to deter future violations.

Concentration                      As defined by OTS, a group of similar types of assets
                                   or liabilities that, when aggregated, exceed 25 percent
                                   of a thrift’s core capital plus allowance for loan and
                                   lease losses. Concentrations may include direct,
                                   indirect, and contingent obligations or large purchases
                                   of loans from a single counterparty. Some higher-risk
                                   asset or liability types (e.g., residual assets) may
                                   warrant monitoring as concentrations even if they do
                                   not exceed 25 percent of core capital plus allowance
                                   for loan lease losses.

Construction permanent             Construction to Permanent loans finance the building
                                   of a new property. This type of financing carries a
                                   regular amortization schedule, and does not require
                                   any refinancing after completion of the building work.


                   Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 34
                    Appendix 3
                    Glossary




Criticized assets                   Loans and other assets that are at risk to some
                                    degree, in the opinion of bank examiners. Criticized
                                    assets are further classified as substandard, doubtful,
                                    loss, or special mention. Substandard asset is
                                    inadequately protected by the current sound worth
                                    and paying capacity of the obligor or by the collateral
                                    pledged, if any. Doubtful assets have all of the
                                    weaknesses inherent in an asset classified
                                    substandard with the weaknesses that make collection
                                    or liquidation in full highly questionable and
                                    improbable. Loss, is considered uncollectible and of
                                    such little value that its continuance on the books is
                                    not warranted. Special mention has potential
                                    weaknesses that deserve management’s close
                                    attention and if left uncorrected, these weaknesses
                                    may result in deterioration of the repayment prospects
                                    for the asset or in the institution’s credit position
                                    sometime in the future.

Disclaimer                          An auditor conclusion that the financial statements of
                                    a company are not fairly presented, and the auditor is
                                    unable to form an opinion as to whether the financial
                                    statements are fairly presented.

FICO scores                         Credit scores provided to lenders by credit reporting
                                    agencies to reflect information that each credit bureau
                                    keeps on file about the borrower and are produced
                                    from software developed by Fair Isaac and Company.
                                    The credit scores take into consideration borrower
                                    information such as (1) timeliness of payments;
                                    (2) the length of time credit has been established;
                                    (3) the amount of credit used versus the amount of
                                    credit available; (4) the length of time at present
                                    residence; and (5) negative credit information such as
                                    bankruptcies, charge-offs, and collections. The higher
                                    the credit score is, the lower the risk to the lender.




                    Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 35
                     Appendix 3
                     Glossary




Generally accepted                   A widely accepted set of rules, conventions,
accounting principles                standards, and procedures for reporting financial
                                     information, as established by the Financial
                                     Accounting Standards Board.

Hedging                              A strategy designed to reduce investment risk. A
                                     hedge can help lock in existing profits. Its purpose is
                                     to reduce the volatility of a portfolio by reducing the
                                     risk of loss.

Initial public offering              Also called IPO. The first price for which a company
                                     offers to sell its stock when it moves from private
                                     ownership to public trade. More generally, it refers to
                                     the actual first sale of stock to the public. Small
                                     companies looking for a new source of financing offer
                                     most IPOs, but large companies who wish to be
                                     publicly traded can offer them as well. An IPO is
                                     generally a risky investment, because one does not
                                     know how much demand will exist for the stock after
                                     its initial offering; the risk comes from the uncertainty
                                     of the stock's resale value.

Interest reserve                     A special savings account funded from the proceeds
                                     of the construction loan. Generally, it is used to pay
                                     off interest costs accrued from a large construction
                                     project. The amount of money that needs to be set
                                     aside is calculated based on several formulas. For
                                     example, one method is to take the total loan value
                                     multiplied by the interest percentage multiplied by the
                                     length of time it will take to complete the project,
                                     which is multiplied by the percentage of time the loan
                                     will be outstanding.

Internal asset review                A system implemented to monitor the credit quality of
                                     an institution’s portfolio and compliance with or
                                     conformity to policies. The internal asset review (IAR)
                                     process should be separate and independent of the
                                     lending function. The IAR program must include
                                     frequent sampling of all asset types and result in the
                                     internal identification of all major portfolio problems
                                     and an accurate assessment of overall asset quality.


                     Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 36
                      Appendix 3
                      Glossary




Letter of intent                      A letter from one company to another acknowledging
                                      a willingness and ability to do business. It is most
                                      often issued to acknowledge a merger between
                                      companies or an acquisition that is it being seriously
                                      considered. It is not a contract and cannot be
                                      enforced.

Loan to one borrower                  In accordance with 12 CFR section 560.93,
                                      regulations that impose lending limitations on thrifts to
                                      avoid the risk of concentrating too great of a portion
                                      of their assets in any single borrower who are related
                                      in a common enterprise. It limits the aggregate dollar
                                      amount of an association’s loans to each borrower,
                                      but does not limit the number of loans to any one
                                      borrower within that aggregate dollar limitation.

Loan to value ratio                   A ratio for a single loan and property calculated by
                                      dividing the total loan amount at origination by the
                                      market value of the property securing the credit, plus
                                      any readily marketable collateral or other acceptable
                                      collateral. In accordance with Interagency Guidelines
                                      for Real Estate Lending Policies (appendix to
                                      12 C.F.R. § 560.101), institutions’ internal loan-to-
                                      value limits should not exceed (1) 65 percent for raw
                                      land; (2) 75 percent for land development; and (3) 80
                                      percent for commercial, multifamily, and other
                                      nonresidential loans. The guidelines do not specify a
                                      limit for owner-occupied one- to four-family properties
                                      and home equity loans. However, when the loan-to-
                                      value ratio on such a loan equals or exceeds 90
                                      percent at the time of origination, the guidelines state
                                      that the thrift should require mortgage insurance or
                                      readily marketable collateral.

Material weakness                     When one or more of company’s internal controls, put
                                      in place to prevent significant financial statement
                                      irregularities, is considered to be ineffective. If a
                                      deficiency in an internal control is thought to be a
                                      material weakness, this means that it could lead to a



                      Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 37
                   Appendix 3
                   Glossary




                                   material misstatement in a company’s financial
                                   statements.

Matter requiring                   A thrift practice noted during an OTS examination
board attention                    that deviates from sound governance, internal control,
                                   and risk management principles, and which may
                                   adversely impact the bank’s earnings or capital, risk
                                   profile, or reputation, if not addressed; or result in
                                   substantive noncompliance with laws and regulations,
                                   internal policies or processes, OTS supervisory
                                   guidance, or conditions imposed in writing in
                                   connection with the approval of any application or
                                   other request by the institution. A matter requiring
                                   board attention (MRBA) is not a formal enforcement
                                   action. Nevertheless, OTS requires that thrifts address
                                   the matter and failure to do so may result in a formal
                                   enforcement action.

Mortgage banking                   The term refers to the origination, sale and servicing
                                   of mortgages. A mortgage banker takes an application
                                   from the borrower and issues a loan to the borrower.
                                   The mortgage banker then sells the loan to an investor
                                   and may retain or sell the servicing of the loan that
                                   includes collecting monthly payments, forwarding the
                                   proceeds to the investors who purchased the loan,
                                   and acting as the investor's representative for other
                                   issues and problems with the loan.

Mutual bank                        An institution that is owned by, and operated for the
                                   benefit of, its depositors.

Nontraditional mortgages           Mortgages that include "interest-only" and "payment
                                   option" adjustable-rates. These products allow
                                   borrowers to exchange lower payments during an
                                   initial period for higher payments during a later
                                   amortization period.

Pipeline                           Loans inventoried in an institution’s held for sale
                                   portfolio to be sold to investors.




                   Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)    Page 38
                     Appendix 3
                     Glossary




Prompt corrective action             A framework of supervisory actions, set forth in
                                     12 U.S.C. § 1831o, for insured depository institutions
                                     that are not adequately capitalized. It was intended to
                                     ensure that action is taken when an institution
                                     becomes financially troubled in order to prevent a
                                     failure or minimize resulting losses. These actions
                                     become increasingly severe as a thrift falls into lower
                                     capital categories. The capital categories are well-
                                     capitalized, adequately capitalized, undercapitalized,
                                     significantly undercapitalized, and critically
                                     undercapitalized. The prompt corrective action
                                     minimum requirements are as follows:

                                          Total              Tier 1/            Tier 1/
                     Capital Category     Risk-Based         Risk-Based         Leverage
                                           10% or        and 6% or         and 5% or greater
                     Well-capitalizeda
                                           greater             greater
                     Adequately            8% or         and 4% or         and 4% or greater
                     Capitalized           greater             greater            (3% for 1-rated)
                                           Less          or    Less        or     Less than 4% (except
                     Undercapitalized
                                           than 8%             than 4%            for 1-rated)
                     Significantly         Less          or    Less        or     Less than 3%
                     Undercapitalized      than 6%             than 3%
                                           Has a ratio of tangible equity to total assets that is equal
                     Critically
                                           to or less than 2 percent. Tangible equity is defined in
                     Undercapitalized
                                           12 C.F.R. § 565.2(f).
                     a To be well-capitalized, a thrift also cannot be subject to a higher capital

                     requirement imposed by OTS.



Risk-based capital                   A thrift’s risk-based capital is the sum of its Tier 1
                                     capital plus Tier 2 capital (to the extent that Tier 2
                                     capital does not exceed 100 percent of Tier 1 capital).
                                     This amount is then reduced by (1) reciprocal holdings
                                     of the capital instruments of another depository
                                     institution, (2) equity investments, and (3) low-level
                                     recourse exposures and residual interests that the
                                     thrift chooses to deduct using the simplified/direct
                                     deduction method, excluding the credit-enhancing
                                     interest-only strips already deducted from Tier 1
                                     capital.




                     Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)          Page 39
                    Appendix 3
                    Glossary




Risk-weighted asset                 An asset rated by risk to establish the minimum
                                    amount of capital that is required within institutions.
                                    To weight assets by risk, an institution must assess
                                    the risk associated with the loans in its portfolio.
                                    Institutions whose portfolios hold more risk require
                                    more capital.

Secondary market                    Financial market where previously issued securities
                                    (such as bonds, notes, shares) and financial
                                    instruments (such as bills of exchange and certificates
                                    of deposit) are bought and sold. All commodity and
                                    stock exchanges, and over-the-counter markets, serve
                                    as secondary markets which (by providing an avenue
                                    for resale) help in reducing the risk of investment and
                                    in maintaining liquidity in the financial system.

Standard unqualified opinion        The auditor issues an opinion on the financial
                                    statements of a company that these statements give a
                                    true and fair view of the state of affairs of a company.

Stated income                       A stated income mortgage loan is a specialized
                                    mortgage loan where the mortgage lender verifies
                                    employment and assets, but not income. Instead, an
                                    income is simply stated on the loan application (the
                                    stated income on the application has to be realistic for
                                    the employment type).

Suspense account                    Temporary account (one not included in financial
                                    statements) created to record (1) disbursements or
                                    receipts associated with yet-unconcluded transactions
                                    until their conclusion, or (2) discrepancies between
                                    totals of other accounts until their rectification or
                                    correct classification.

Thrift Financial Report             A financial report that thrifts are required to file
                                    quarterly with OTS. The report includes detailed
                                    information about the institution's operations and
                                    financial condition, and must be prepared in
                                    accordance with generally accepted accounting
                                    principles. The thrift financial report for thrifts is
                                    similar to the call report required of commercial banks.


                    Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 40
                      Appendix 3
                      Glossary




Troubled Asset Relief Program A program authorized by the Emergency Economic
                              Stabilization Act of 2008 that provides Treasury with
                              broad, flexible authorities to buy up to $700 billion in
                              “troubled assets” and allows Treasury to purchase and
                              insure mortgages and securities based on mortgages.
                              Also, in consultation with the Chairman of the Board
                              of Governors of the Federal Reserve System Treasury
                              may purchase any other financial instrument deemed
                              necessary to stabilize financial markets.

Troubled Condition and                An informal enforcement action issued to an
Directive Letter                      institution that it has one or more of the following
                                      conditions that put it into a troubled condition: (1)
                                      self-dealings or other conflicts of interest, (2) unsafe
                                      and unsound practices, (3) management
                                      incompetence, (4) lack of director participation, or (5)
                                      disregard for the regulatory process. The institution’s
                                      board is ultimately responsible for prevention or
                                      correction of these problems. If the board is unable or
                                      unwilling to correct serious problems, OTS must act
                                      immediately to protect the association and ensure its
                                      safety and soundness.

Unqualified opinion                   This opinion on the financial statements of a company
                                      can include an explanatory paragraph stating that a
                                      complete audit took place with satisfactory results
                                      and the financial statements are fairly presented, but
                                      the auditor believes that it is important or is required
                                      to provide additional information regarding the
                                      financial statements.




                      Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 41
                       Appendix 4
                       Chronology of Significant Events




The following chronology describes significant events in the history of Suburban
Federal Savings Bank (Suburban), including examinations conducted and enforcement
actions taken by the Office of Thrift Supervision (OTS). Appendix 5 contains additional
information on the results of examinations, including any significant safety and
soundness matters requiring attention, and recommended actions.

 Date                       Event
 1/1/1954                   Suburban bank is established under the name Suburban Federal Savings
                            and Loan Association of Lanham.
 1972                       The founder son became an employee of the thrift.
 2/24/1988                  Suburban changed its name to Suburban Federal Savings Bank and type to
                            a mutual savings bank.
 11/2001                    A new loan officer is hired to oversee the expansion of the acquisition,
                            development and construction (ADC) portfolio.
 2/11/2002                  Suburban moved thrift headquarters from Landover Hills, Maryland, to
                            Crofton, Maryland.
 1/2003                     A new chief lending officer (CLO) is hired and eventually given
                            responsibility for overseeing the expansion of the thrift’s higher risk lending
                            activities.
 4/28/2003                  OTS started a comprehensive examination that resulted in an overall
                            CAMELS composite rating of 3. Examiners identified substantive books and
                            records deficiencies, significant concerns in asset quality, and corrective
                            actions that were not fully addressed by management and the board from
                            the prior examination. The examination was completed on 6/11/2003 and
                            mailed on 7/11/2003.
 7/30/2003                  OTS’s Southeast Regional Office holds a Supervisory Action Committee
                            (SAC) meeting to consider whether enforcement action should be pursued
                            based on the findings of the April 28, 2003 examination. The SAC made
                            the decision to not pursue formal action based on it being the thrift’s first
                            3 rating and none of the Section E factors 12 were present.
 8/13/2003                  Southeast Region staff scheduled a meeting with Suburban’s management
                            and board of Suburban to meet on August 18, 2003 to review the findings
                            of the April 28, 2003 ROE.
 9/29/2003                  Internal audit report was issued for fiscal year June 30, 2003. The
                            auditors gave a standard unqualified opinion and no matters were
                            considered to be a material weakness.
 11/1/2003                  Suburban acquired a mortgage production office located in Timonium,
                            Maryland. The private owner of the office became an employee (mortgage

12
   Section 370 of the OTS Examination Handbook states that there is a presumption that savings
associations with a composite rating of 3 for the latest safety and soundness, compliance, trust, or
information technology examination warrant formal enforcement action under the following
circumstances; management is weak, there is uncertainty as to whether management and the board
have the ability or willingness to take appropriate corrective measures, conditions are rapidly
deteriorating, and a 3-rating continues for two consecutive examinations following the thrift entering
into the informal enforcement action, unless the thrift complies with the informal enforcement action
and no new grounds exist for taking a formal action.

                       Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)           Page 42
             Appendix 4
             Chronology of Significant Events


Date             Event
                 banking officer) of the thrift and with the thrift’s chief loan officer (CLO),
                 managed the operation.
12/15/2003       The founder’s son passed the title of chief executive officer (CEO) to his
                 son, the third generation of family to run Suburban bank.
3/29/2004        OTS conducted a field visit to review the operations of the Timonium
                 mortgage production office. The examination was completed on
                 4/12/2004 and mailed 5/11/2004.
6/30/2004        Suburban’s Prompt Corrective Action (PCA) category was downgraded to
                 adequately capitalized from well capitalized.
8/16/2004        OTS started a comprehensive examination that resulted in an overall
                 CAMELS composite rating of 2. OTS noted ongoing concerns with asset
                 quality and concerns with respect to internal controls and accounting
                 errors. The examination was completed on 10/4/2004 and mailed
                 11/3/2004.
9/30/2004        Suburban merged with Westview Federal Savings Bank located in
                 Baltimore, Maryland, adding two branches, increasing its asset base by
                 $65.0 million and capital by $10.6 million. Through this merger, Suburban
                 regained a well capitalized status.
11/22/2004       Internal audit report was issued for fiscal year June 30, 2004. The
                 auditors gave an unqualified opinion with an explanatory paragraph and
                 three matters involving the internal control structure and its operation were
                 considered to be a material weakness.
8/19/2005        Suburban posted a “Notice of Adoption of a Plan of Conversion” in the
                 Washington Times to announce its intent to convert from a federal mutual
                 savings bank to a federal stock savings bank.
11/21/2005       OTS started a comprehensive examination that resulted in an overall
                 CAMELS composite rating of 2. OTS noted concerns with respect to
                 Suburban’s accounting and financial reporting errors and internal controls.
                 The examination is completed on 1/24/2006 and mailed on 2/23/2006.
3/7/2006         Internal audit report was issued for fiscal year June 30, 2005. In the
                 auditors opinion, no matters involving internal control and its operation
                 were considered to be a material weakness.
1/25/2007        Suburban’s attorney notified OTS that the thrift would file a stock
                 conversion application in March 2007. An application, however, was never
                 filed.
2/20/2007        OTS started a comprehensive examination that resulted in an overall
                 CAMELS composite rating of 3. OTS noted concerns with the high level of
                 classified and criticized assets, a concentration of higher risk assets
                 (residential construction permanent, ADC, land, and nontraditional
                 mortgage loans); inaccurate reporting of earnings, material internal control
                 weaknesses, and material accounting errors. The examination was
                 completed on 6/20/2007 and mailed on 7/20/2007.
5/8/2007         Suburban’s attorney notified OTS that the thrift would file a stock
                 conversion application in August or September of 2007. An application,
                 however, was not filed.
5/18/2007        Internal audit report was issued for fiscal year June 30, 2006. The
                 auditors gave an unqualified opinion with explanatory paragraph, two
                 matters in internal control were considered significant deficiencies and


             Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)         Page 43
             Appendix 4
             Chronology of Significant Events


Date             Event
                 three matters pertaining to the control environment were considered to be
                 a material weakness.
7/5/2007         The OTS Southeast regional office held a SAC meeting to determine
                 whether enforcement action was warranted based on the findings of the
                 February 20, 2007, examination. The SAC determined that the following
                 enforcement actions should be taken: (1) issuance of a Troubled Condition
                 and Directive Letter (TLC) contemporaneous to the transmission of the
                 Report of Examination (ROE) to the thrift; and (2) issuance of a cease and
                 desist order.
7/23/2007        OTS issued a TCL that prohibited Suburban from engaging in new lending
                 or business activities, entering into new third party contracts, making new
                 ADC loans, and renewing existing ADC loans unless the loans were
                 performing as agreed.
7/26/2007        OTS’s Southeast regional director and staff met with Suburban the
                 CEO/president and a select group of directors to discuss the February
                 2007 examination findings.
8/13/2007        OTS started a field visit to follow-up on the asset quality concerns noted in
                 the February 20, 2007 ROE. The review found that asset quality had
                 deteriorated further. The examination was completed on 8/22/2007 and
                 mailed on 9/20/2007.
12/10/2007       Internal audit report was issued for fiscal year June 30, 2007. The
                 auditors gave a standard unqualified opinion with two matters in internal
                 control were considered significant deficiencies and four matters in internal
                 control were considered to be a material weakness.
1/31/2008        The founder’s son retired as chairman of the board and director of
                 Suburban.
3/21/2008         The Cease & Desist order is signed into effect. The order required;
                  • restrictions on origination of new ADC loans,
                  • revised lending policies,
                  • identification of all nontraditional loans for continuing review,
                  • new review and monitoring guidelines for residential loan portfolios,
                  • new internal asset review and classification programs,
                  • revised internal controls and internal audit programs,
                  • a new business plan,
                  • a revised compliance program,
                  • board review and oversight of management performance and
                      responsibilities, and
                  • establishment of a board compliance committee to ensure compliance
                      with the order.
7/21/2008        OTS started a comprehensive examination at Suburban that resulted in an
                 overall CAMELS composite rating of 5. OTS noted concerns in nearly all
                 phases of the examination, including numerous records and financial report
                 concerns, questionable and unsound management decisions, a dramatic
                 decline in the quality of loans and related significant loan losses, rapidly
                 increasing operating losses, and a resultant sharp decline in the capital
                 position. The examination was completed on 1/15/2009 and mailed on
                 1/16/2009.
9/6/2008         OTS started a limited comprehensive examination to downgrade the thrift


             Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)        Page 44
             Appendix 4
             Chronology of Significant Events


Date             Event
                 based on the findings of the in-progress July 21, 2008, comprehensive
                 examination. OTS assigned an overall CAMELS composite rating of 4.
9/16/2008        OTS’s Southeast regional director and staff held a conference call with
                 Suburban’s board and counsel to discuss the possibility of a voluntary
                 supervisory conversion or merger of the institution.
10/7/2008        OTS’s Southeast regional director and staff held a conference call with
                 Suburban’s counsel to discuss the progress in finding a merger partner.
                 Suburban informed OTS that it had engaged an investment banker to find
                 potential acquirers.
10/20/2008       During this week, OTS examiners directed the thrift to amend the TFR for
                 the period ending June 30, 2008. The adjustment moved the core and risk-
                 based capital ratios at June 30, 2008, from 6.7 percent and 10.9 percent
                 to 2.3 percent and 4.4 percent, respectively changing the thrift’s PCA
                 category from well capitalized to significantly undercapitalized.
10/24/2008       OTS’s Southeast regional director and staff held a conference call with
                 Suburban management who informed OTS that no serious merger or
                 acquisition candidates have been identified.
11/5/2008        Suburban filed its TFR for the quarter ended September 30, 2008. The TFR
                 indicated that Suburban was critically undercapitalized.
11/7/2008        OTS started a limited comprehensive examination to downgrade the thrift
                 based on additional findings of the in-progress July 20, 2008,
                 comprehensive examination. OTS assigned an overall CAMELS composite
                 rating of 5. The examination was completed on 11/7/2008 and mailed
                 11/7/2008.
11/7/2008        OTS issued a critically undercapitalized notice to Suburban which required
                 the thrift to file a capital restoration plan by November 21, 2008. The
                 notice also placed additional restrictions on the thrift’s activities including
                 capital distributions, increasing asset size, acquisitions, brokered deposits
                 and compensation.
11/14/2008       A foreign-owned insurance corporation filed an application with OTS to
                 become a savings and loan holding company. It announced a plan to
                 acquire Suburban contingent upon receiving Treasury Asset Relief Program
                 (TARP) funds.
11/26/2008       Internal audit report was issued for fiscal year June 30, 2008. The
                 auditors gave a disclaimer, and noted seven matters were considered
                 significant deficiencies and three matters in internal control were
                 considered to be a material weakness.
12/12/2008       The foreign-owned insurance corporation withdrew its application once it
                 determined that it was not eligible to participate in the TARP program.
12/17/2008       OTS’s Southeast regional director and staff met with management of a
                 potential acquirer to discuss acquiring the thrift through a voluntary
                 supervisory conversion.
12/17/2008       OTS Southeast Region recommended to OTS headquarters that Suburban
                 be referred to the Department of Justice (DOJ) because of a pattern or
                 practice of violating the Equal Credit Opportunity Act. OTS follows through
                 with the recommendation and on January 30, 2009 notifies Suburban of
                 its referral to the DOJ.
12/31/2008       A potential acquirer issued a nonbinding letter of intent to acquire


             Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)          Page 45
                        Appendix 4
                        Chronology of Significant Events


 Date                        Event
                             Suburban. The letter gave the potential acquirer a right of first refusal to
                             purchase Suburban and indicates that it will continue with due diligence.
 1/12/2009                   Suburban filed an application for voluntary supervisory conversion with
                             OTS. The application, however, was substantially incomplete in that the
                             application package did not include a signed definitive agreement with the
                             acquirer.
 1/16/2009                   OTS transmitted the July 20, 2008, ROE that assigns an overall CAMELS
                             composite rating of 5. The ROE notes severe losses, high levels of
                             criticized assets, and material accounting and internal controls
                             weaknesses.
 1/16/2009                   OTS’s Southeast regional director and staff met with management of the
                             potential acquirer, who indicated that it wanted open bank assistance
                             13
                                and would be discussing this with the Federal Deposit Insurance
                             Corporation (FDIC).
 1/20/2009                   The potential acquirer’s attorney provided OTS’s Southeast Region with a
                             draft copy of a stock purchase agreement with Suburban. The agreement,
                             however, was contingent on obtaining TARP funds.
 1/21/2009                   OTS informed the potential acquirer that it will not process the application
                             with the TARP funds contingency. The potential acquirer indicates it would
                             withdraw its application.
 1/21/2009                   OTS issued a Prompt Corrective Action directive requiring Suburban to
                             comply with the terms of its Capital Restoration Plan, find a merger
                             partner, and achieve well capitalized status.
 1/23/2009                   Suburban executed a stock purchase agreement provided by the potential
                             acquirer that includes a TARP approval requirement.
 1/26/009                    OTS informed the potential acquirer’s attorneys that the proposed
                             transaction is not feasible due to the contingency clause and other
                             concerns.
 1/27/2009                   Suburban’s CEO/president sent a letter to the thrift’s congressman
                             requesting assistance in obtaining a 60-day extension on the closing of the
                             thrift. The request was forwarded to OTS who then responded on March
                             12, 2009 informing the congressman of the thrift’s condition leading up to
                             the closure.
 1/27/2009                   OTS informed Suburban’s CEO/president and board that the agency would
                             not take action to delay the planned receivership.
 1/30/2009                   OTS appointed FDIC receiver of Suburban and is subsequently merged with
                             Bank of Essex in Tappahannock, Virginia.
 Source: OIG analysis of OTS, FDIC, and Suburban Federal Savings Bank data.




13
   The third basic resolution method for failing financial institutions is an open bank assistance
transaction. In an open bank assistance transaction, the Federal Deposit Insurance Corporation (FDIC)
provides financial assistance to an operating insured bank or thrift to keep it from failing. The FDIC can
make cash contributions to, make loans to, purchase the assets of, or place deposits in the troubled
bank or thrift.

                        Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)         Page 46
                    Appendix 5
                    OTS Suburban Examinations and Enforcement Actions




This appendix lists Office of Thrift Supervision (OTS) safety and soundness
examinations of Suburban beginning April 2003 until the thrift’s failure in January
2009 and provides information on the significant results of those examinations.
Generally, matters requiring board attention represent the most significant items
requiring corrective action found by the examiners.

Date                                      Significant safety and soundness corrective
examination   CAMELS        Assets        actions and other issues cited in reports of   Enforcement
started       rating        ($Millions)   examination (ROE)                              action
4/28/2003     3/233222            $237    Matters requiring board attention                 None
                                          • Charge-off all education loans that are
                                             120 days or more delinquent.
                                          • Take steps to improve the underwriting
                                             and administration of all non-
                                             homogeneous loans, and participation
                                             loans in particular. Prior to executing
                                             additional participation agreements,
                                             management should ensure that each
                                             loan has been fully underwritten in
                                             accordance with regulatory guidelines.
                                             Management should also obtain
                                             appropriate support prior to each
                                             disbursement for participation loans.
                                          • Recalculate the required level of the
                                             allowance for loan and lease losses
                                             (ALLL) using interagency guidelines and
                                             immediately book the indicated
                                             shortage.
                                          • Implement a formal internal asset
                                             review function consistent with
                                             regulatory guidelines.
                                          • Take steps to improve its loan to one
                                             borrower (LTOB) record keeping
                                             system.
                                          • Review and address all corrective
                                             actions in this examination report and
                                             submit a report to the OTS regional
                                             office detailing planned corrective
                                             actions. Follow-up reports should be
                                             submitted as necessary once corrective
                                             actions have been fully implemented.
                                             All corrective actions taken should be
                                             reviewed by the board and documented
                                             in the board meeting minutes.
                                          • Take steps to ensure that future loans
                                             to insiders are in full compliance with
                                             Regulation O requirements.

                    Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)        Page 47
                    Appendix 5
                    OTS Suburban Examinations and Enforcement Actions



Date                                      Significant safety and soundness corrective
examination   CAMELS        Assets        actions and other issues cited in reports of   Enforcement
started       rating        ($Millions)   examination (ROE)                              action
                                          •   Review all forms of compensation made
                                              available to the Chief Executive Officer
                                              (CEO) and president. The review should
                                              be made to determine the
                                              appropriateness of the levels of such
                                              compensation and to determine
                                              compliance with Appendix A to 12
                                              C.F.R. Part 570 – Interagency
                                              Guidelines Establishing Standards for
                                              Safety and Soundness. Such review
                                              should be made on an annual basis and
                                              recorded in the board’s meeting
                                              minutes. The process should entail not
                                              only a simple review of compensation,
                                              but should also include fully detailed
                                              and documented comparisons of
                                              remuneration to both industry standards
                                              and institutions that operate similar
                                              lines of business at similar levels of
                                              activity. These reviews and
                                              comparisons must fully justify
                                              compensation levels that are
                                              appropriate in light of both management
                                              and institution performance.
                                          •   Adopt a liquidity management policy
                                              consistent with the guidance contained
                                              in Thrift Bulletin 77.
                                          •
8/16/2004     2/232222            $263    Matters requiring board attention                 None
                                          • Make the transfer of mortgages from
                                             the held for sale portfolio to the long-
                                             term investment classification in
                                             accordance with Generally Accepted
                                             Accounting Principles (GAAP) at the
                                             lower of cost or market value.
                                          Other corrective actions to be taken by
                                          Suburban
                                          • Modify the inspection policies and
                                             procedures for land development and
                                             construction loans to provide for
                                             adequate documentation of inspections,
                                             and to ensure that adequate controls
                                             exist with regard to the inspection
                                             process.
                                          • Revise appraisal practices to ensure
                                             that values are adequately supported,
                                             and based on discounted value


                    Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)        Page 48
                    Appendix 5
                    OTS Suburban Examinations and Enforcement Actions



Date                                      Significant safety and soundness corrective
examination   CAMELS        Assets        actions and other issues cited in reports of     Enforcement
started       rating        ($Millions)   examination (ROE)                                action
                                              estimates, where applicable.
                                          •   Continue its efforts to improve
                                              monitoring procedures on participation
                                              loans.
                                          •   Strengthen the internal review function
                                              with particular attention given to the
                                              guidelines discussed in OTS CEO
                                              Memorandum 140.
                                          •    Reassess the adequacy of the ALLL
                                              based on September 30, 2004 data,
                                              including the additional criticized assets
                                              identified during the current
                                              examination.
                                          •
11/21/2005    2/223222            $397    Matters requiring Suburban board attention          None
                                          •   Immediately establish policies and
                                             procedures to ensure the timely
                                             reconciliation of all balance sheet
                                             accounts. The policy should note, at a
                                             minimum, that no unreconciled items be
                                             carried longer than 90 days.
                                          •   Write-off any stale dated reconciling
                                             items in all balance sheet accounts.
                                             These reconciling items should be
                                             immediately recognized in
                                             earnings/capital. Since the amounts of
                                             reconciling items were unknown at the
                                             end of the examination, management
                                             should notify the Atlanta regional office
                                             of the total amount of these reconciling
                                             items.
                                          • The Audit Committee should closely
                                             monitor and evaluate the effectiveness
                                             of policies and procedures established
                                             to ensure the timely reconciliation of
                                             accounts.
                                          •   Strengthen the accounting,
                                             supervision, and financial controls over
                                             the mortgage banking department.
                                          •   Establish written policies and
                                             procedures for the manner in which the
                                             mortgage banking department’s
                                             transactions are recorded and
                                             independently verified.
                                          •   Approve an appropriate written
                                             Hedging Policy that follows the
                                             guidance of Thrift Activities Handbook


                    Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)          Page 49
                    Appendix 5
                    OTS Suburban Examinations and Enforcement Actions



Date                                      Significant safety and soundness corrective
examination   CAMELS        Assets        actions and other issues cited in reports of     Enforcement
started       rating        ($Millions)   examination (ROE)                                action
                                             Section 660: Derivative Instruments
                                             and Hedging.
                                          •   Ensure that appropriate segregation of
                                             duties and internal controls are
                                             developed to properly supervise the
                                             thrift’s hedging positions.
                                          • In conjunction with the thrift’s
                                             independent audit firm, management
                                             and the board should ensure appropriate
                                             application of SFAS 133 and other
                                             accounting guidance before relevant
                                             transactions are booked.
                                          Other Corrective actions to be taken by
                                          Suburban
                                          • None Identified
2/20/2007     3/234222            $411     Matters requiring Suburban board attention      Troubled
                                          • Take immediate steps to establish a            Condition
                                             comprehensive internal audit function.        and Directive
                                             The audit function should address all         Letter issued
                                             areas of the thrift’s operations in order     7/23/2007
                                             to provide a means for the board to
                                             assess the adequacy of policies,              Cease and
                                             procedures and controls, and to ensure        Desist Order
                                             accurate books and records, as well as        issued
                                             compliance with safety and soundness          3/21/2008
                                             standards.
                                          •   Undertake all possible actions to
                                             reduce the level of problem assets at
                                             the thrift.
                                          •   Implement a comprehensive asset
                                             review process for the acquisition,
                                             development, and construction (ADC)
                                             loan portfolio, which includes review
                                             and analysis of project and
                                             borrower/guarantor financial
                                             performance, and loan performance.
                                             Provide the findings of this review to
                                             the Asset Review Committee for use in
                                             determining the classification and
                                             designation of troubled assets, and
                                             provide the same findings to the board
                                             on a monthly basis.
                                          •   Adopt specific guidelines detailing
                                             appropriate and acceptable exposure
                                             levels for each of the thrift’s higher-risk
                                             residential loan portfolio categories.
                                          •   Increase the ALLL to $2,223,000,


                    Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)          Page 50
                    Appendix 5
                    OTS Suburban Examinations and Enforcement Actions



Date                                      Significant safety and soundness corrective
examination   CAMELS        Assets        actions and other issues cited in reports of   Enforcement
started       rating        ($Millions)   examination (ROE)                              action
                                             based on the examiner’s ALLL
                                             calculations as of December 31, 2006.
                                             In addition, management must
                                             immediately incorporate the December
                                             2006 ALLL interagency guidance into
                                             its ALLL process.
                                          •   Review the entire loan portfolio to
                                             ensure that all high loan-to-value (LTV)
                                             loans are identified, that all high LTV
                                             loans are included on the high LTV
                                             schedule, and that high LTV loans are
                                             properly reported to the board, as
                                             required by 12 C.F.R. § 560.101.
                                          •   Develop a consolidated and
                                             comprehensive LTOB report, to include
                                             all borrowers, principals, and
                                             guarantors, so that regulatory
                                             compliance can be properly monitored.
                                          Other corrective actions to be taken
                                          • Formalize cash flow management
                                             practices in order to fully comply with
                                             the guidance included in Thrift Bulletin
                                             77.
                                          • Present a summary of the thrift’s
                                             interest rate risk (IRR) position to the
                                             board on at least a quarterly basis.
                                          • Review and present to the board for
                                             approval, revised board limits for
                                             allowable levels of IRR.
7/21/2008     5/555544            $400    Matters requiring Suburban board attention     Prompt
                                          • Continue its efforts to identify viable      Correct
                                             acquisition candidates in accordance        Action
                                             with the board-approved Capital
                                                                                         Directive
                                             Restoration Plan.
                                                                                         issued
                                          • Develop a monitoring system for
                                             second mortgage loans, including a          1/21/2009
                                             process for monitoring the performance
                                             of the first mortgage on these
                                             properties.
                                          •   Require that a report on the
                                             performance of the second mortgage
                                             loan portfolio be presented to it on at
                                             least a quarterly basis.
                                          • Ensure that high LTV loans of all types
                                             are properly identified and included in
                                             the quarterly report of such loans
                                             submitted to it.


                    Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)        Page 51
                   Appendix 5
                   OTS Suburban Examinations and Enforcement Actions



Date                                     Significant safety and soundness corrective
examination   CAMELS       Assets        actions and other issues cited in reports of    Enforcement
started       rating       ($Millions)   examination (ROE)                               action
                                         •    Ensure that management implements a
                                             quarterly asset review process for the
                                             ADC loan portfolio, which includes
                                             review and analysis of project and
                                             borrower/guarantor financial
                                             performance, and loan performance.
                                         •    Ensure that management continues to
                                             seek ways to reduce concentrations of
                                             ADC loans, land loans, nontraditional
                                             residential loans, and second mortgage
                                             loans.
                                         •    Require that management prepare a
                                             comprehensive review, response, and
                                             action plan to address the findings of
                                             any third party Internal Asset Review,
                                             and should require that this report be
                                             presented to the board of directors for
                                             discussion and approval.
                                         •   Ensure that management avoid the
                                             purchase of foreclosed properties
                                             unless it is in the best interest of the
                                             bank, and in this regard, should ensure
                                             that such decisions are not based on
                                             real estate speculation.
                                         •   Continue to seek ways to resolve the
                                             bank’s high level of troubled assets in
                                             the most cost efficient manner possible.
                                         •   Ensure that management objectively
                                             assesses all troubled assets, and ensure
                                             that these assets are properly classified
                                             and that all reserves for loss are
                                             properly established.
                                         •    Be mindful of issues related to loan
                                             fraud, should ensure that the reasons
                                             for these incidents are investigated, and
                                             should develop methods and controls so
                                             that such occurrences are minimized
                                             and do not re-occur.
                                         •    Ensure that the bank fully complies
                                             with all provisions of the July 2007
                                             Troubled Condition and Directive Letter
                                             and the March 2008 Cease and Desist
                                             Order.
                                         •    Reinstate the audit of finance and
                                             accounting into the Internal Audit
                                             Program.
                                         •   Require that the Chief Financial Officer


                   Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)         Page 52
                   Appendix 5
                   OTS Suburban Examinations and Enforcement Actions



Date                                     Significant safety and soundness corrective
examination   CAMELS       Assets        actions and other issues cited in reports of   Enforcement
started       rating       ($Millions)   examination (ROE)                              action
                                            (CFO) identify all systems and
                                            personnel deficiencies that have caused
                                            the bank’s continued accounting and
                                            financial reporting problems and should
                                            require that the EVP/CFO develop an
                                            action plan to resolve these problems.
                                         • Determine that CFO is unable to
                                            address and resolve these ongoing
                                            problems in the accounting department,
                                            the board should initiate steps to
                                            resolve these difficulties in a timely
                                            manner.
                                         • Review the Information Security
                                            Program on an annual basis, pursuant
                                            to 12 C.F.R Part 570, Appendix B.
                                         • Review and investigate the
                                            reasonableness of the benefits provided
                                            under the Employment Agreement with
                                            the CEO/president, and the costs
                                            associated with this plan.
                                         • Review and investigate the
                                            reasonableness of the Executive Salary
                                            Continuation Agreement with the
                                            CEO/president in light of management’s
                                            performance and the cost to the
                                            institution.
                                         •   Review and investigate the
                                            reasonableness of continuation of the
                                            bank owned life insurance (BOLI)
                                            contract.
                                         • Continue to seek ways to improve
                                            operating results, including focusing on
                                            ways to eliminate reliance on third
                                            parties and consultants.
                                         •   Should ensure that available liquidity
                                            resources are carefully monitored and
                                            maintained to meet both present cash
                                            needs and those required for the near
                                            term maturity of Federal Home Loan
                                            Bank borrowings.
                                         • Ensure that IRR reports and net present
                                            value (NPV) exposure limits are
                                            presented and discussed at meetings of
                                            the board on a quarterly basis, pursuant
                                            to 12 C.F.R. Section 563.176 (d).
                                         Other corrective actions to be taken by
                                         Suburban


                   Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)        Page 53
                   Appendix 5
                   OTS Suburban Examinations and Enforcement Actions



Date                                     Significant safety and soundness corrective
examination   CAMELS       Assets        actions and other issues cited in reports of    Enforcement
started       rating       ($Millions)   examination (ROE)                               action
                                         •    Make every effort to reduce the level
                                             of problem loans.
                                         •   Seek to recognize loan impairment at an
                                             early stage in the problem loan cycle,
                                             and order updated appraisals when
                                             required, to ensure that SFAS 114
                                             reserve calculations are as accurate as
                                             possible.
                                         •    Utilize historical loss ratios as a
                                             starting point for Statement of Financial
                                             Accounting Standards (SFAS)5
                                             allowances and should consider
                                             adjusting these ratios for changes in
                                             current trends, conditions, and other
                                             relevant factors that may affect
                                             repayment of the loans.
                                         •   Classify all loans placed on nonaccrual
                                             status and review for possible
                                             impairment. Loans which display other
                                             collateral and/or borrower performance
                                             concerns should also be reviewed for
                                             classification.
                                         •   When real estate owned (REO) is
                                             acquired, the acquisition price should be
                                             considered to be the indicator of value,
                                             unless management can fully document
                                             otherwise.
                                         •    Carefully evaluate the property
                                             securing loan foreclosures to determine
                                             the proper management action at the
                                             time of the sale. This evaluation should
                                             include a current and supportable
                                             appraisal report, supported by a detailed
                                             inspection of the property, and a
                                             current assessment of the local market
                                             area.
                                         •   Report all loans previously covered
                                             under the pool insurance program on
                                             future high LTV aggregate board
                                             reports.
                                         •   Continue to reduce the level of high
                                             LTV loans to below the regulatory limit
                                             of 100 percent capital.
                                         •   Not make any more high LTV loans until
                                             such time that the portfolio of high LTV
                                             loans is below the regulatory limit of
                                             100 percent of capital.


                   Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)         Page 54
                        Appendix 5
                        OTS Suburban Examinations and Enforcement Actions



Date                                           Significant safety and soundness corrective
examination    CAMELS           Assets         actions and other issues cited in reports of        Enforcement
started        rating           ($Millions)    examination (ROE)                                   action
                                               •      Report the balance of both first and
                                                      second mortgages on residential
                                                      properties in which the combined LTV
                                                      exceeds 90 percent and there are no
                                                      appropriate credit enhancements.
                                               •       Order new appraisals and calculate
                                                      impairment when second mortgages
                                                      become 60 days past due.
                                               •      Continue to focus on reducing the level
                                                      of nonperforming assets.
                                               •      Make every effort to reduce the level of
                                                      other operating expenses in order to
                                                      offset the declining net interest margin.
                                               •      Evaluate the purpose and need for the
                                                      use of outside consultants in the effort
                                                      to reduce excessive expenses.
                                               •       Continue to closely monitor cash flow
                                                      and liquidity, particularly to ensure that
                                                      cash flow is sufficient to cover the
                                                      upcoming borrowing maturity in May
                                                      2009.
                                               •      Fully investigate all interest rate risk
                                                      (IRR) reports provided by OTS so that
                                                      interest rate risk can be effectively
                                                      reported to the board in the most cost
                                                      efficient manner.
                                               •      Ensure that IRR reports and NPV
                                                      exposure limits are presented and
                                                      discussed at meetings of the board on a
                                                      quarterly basis, pursuant to 12 C.F.R.
                                                      Section 563.176 (d).
Source: OIG analysis of OTS Reports of Examination.




                        Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)              Page 55
                      Appendix 6
                      Prior OIG Material Loss Review Recommendations




We have completed five mandated material loss reviews of failed thrifts since April
2008, starting with the material loss review of NetBank, FSB. This appendix provides
our recommendations to the Office of Thrift Supervision (OTS) resulting from these
reviews. OTS management concurred with the recommendations and has taken or
planned corrective actions that are responsive to the recommendations. In certain
instances, the recommendations address matters that require ongoing OTS
management and examiner attention.

 Report Title                                        Recommendations to OTS Director
 Safety and Soundness: Material Loss Review of       Ensure that the recommendations/lessons
 NetBank, FSB, OIG-08-032 (Apr. 23, 2008)            learned from OTS’s internal assessments of the
                                                     NetBank failure, as described on pages 21 and
 OTS closed NetBank and appointed the Federal        28 of that report, are implemented.
 Deposit Insurance Corporation (FDIC) as receiver
 on September 28, 2007. At that time, FDIC           Re-emphasize to examiners that for 3-rated
 estimated that NetBank’s failure would cost the     thrifts, formal enforcement action is presumed
 Deposit Insurance Fund $108 million.                warranted when certain circumstances identified
                                                     in the OTS Examination Handbook are met.
                                                     Examiners are also directed to document in the
                                                     examination files the reason for not taking
                                                     formal enforcement action in those
                                                     circumstances.

                                                     Establish in policy a process to assess the
                                                     causes of thrift failures and the supervision
                                                     exercised over the institution and to take
                                                     appropriate action to address any significant
                                                     supervisory weaknesses or concerns identified.

 Safety and Soundness: Material Loss Review of       Ensure that action is taken on the lessons
 IndyMac Bank, FSB, OIG-09-032 (Feb. 26,             learned and recommendations from the OTS
 2009)                                               internal review of the IndyMac failure.

 OTS closed IndyMac on July 11, 2008, and            Caution examiners that assigning composite
 named FDIC as conservator. As of My 8, 2009,        CAMELS ratings of 1 or 2 to thrifts with high-
 FDIC estimated that IndyMac’s failure would         risk, aggressive growth business strategies need
 cost the Deposit Insurance Fund $10.7 billion.      to be supported with compelling, verified
                                                     mitigating factors. Such mitigating factors
                                                     should consider things such as the institution’s
                                                     corporate governance, risk management
                                                     controls, allowance for loan and lease losses
                                                     methodologies, concentration limits, funding
                                                     sources, underwriting standards, and capital
                                                     levels and whether the mitigating factors are
                                                     likely to be sustainable in the long-term. Another
                                                     important factor that should be considered is the
                                                     extent to which the thrift offers nontraditional
                                                     loan products (regardless of whether loans are

                      Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)         Page 56
                     Appendix 6
                     Prior OIG Material Loss Review Recommendations




                                                    sold or retained) that have not been stress
                                                    tested in difficult financial environments, and
                                                    whether the thrift can adequately manage the
                                                    risks associated with such products. OTS should
                                                    re-examine and refine as appropriate its guidance
                                                    in this area.

Safety and Soundness: Material Loss Review of       Remind examiners of the risks associated with
Ameribank, Inc., OIG-09-036 (April 7, 2009)         rapid growth in high-risk concentrations.

OTS closed Ameribank and appointed the FDIC         Remind examiners to conduct more thorough
as receiver on September 19, 2008. As of            loan sampling from the portfolio if they identify a
December 31, 2008, FDIC estimated that              rapid increase in concentration.
Ameribank’s failure would cost the Deposit
Insurance Fund $33.4 million.                       Remind examiners of the examination guidance
                                                    for thrift third-party relationships, with particular
                                                    attention to the assessment of the risk the
                                                    relationship may pose to the thrift’s safety and
                                                    soundness.

                                                    Assess the need for guidance requiring risk
                                                    assessment of construction rehabilitation
                                                    account loans as an integral part of assessing a
                                                    thrift’s overall risk.

                                                    Ensure that the recommendations and the
                                                    lessons learned from OTS’s internal assessment
                                                    of the Ameribank failure are implemented.

Safety and Soundness: Material Loss Review of       Ensure that the recommendations from OTS’s
PFF Bank and Trust, OIG-09-038 (June 12,            internal assessment of the PFF failure are
2009)                                               implemented and that the lessons learned from
                                                    the assessment are taken into account going
OTS closed PFF and appointed the Federal            forward. In this regard, OTS should:
Deposit Insurance Corporation (FDIC) as receiver
on November 21, 2008. As of May 8, 2009,            •   Direct examiners to closely review and
FDIC estimated that PFF’s failure would cost the        monitor thrifts that refuse to establish
Deposit Insurance Fund $729.6 million.                  appropriate limits of concentrations that
                                                        pose significant risk and pursue corrective
                                                        action when concentration limits are not
                                                        reasonable.

                                                    •   Formally communicate the guidance in ND
                                                        Bulletin 06-14 as to OTS’s expectation that
                                                        concentration measurements and limits be
                                                        set as a percentage of capital, not just as a
                                                        percentage of total assets or loans.




                     Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)            Page 57
                     Appendix 6
                     Prior OIG Material Loss Review Recommendations




                                                    •   Formally communication the need for a
                                                        sound internal risk management system that
                                                        includes stress testing, regular periodic
                                                        monitoring, and other risk management tools
                                                        for higher –risk concentrations.
Safety and Soundness: Material Loss Review of       Ensure that the recommendations from OTS’s
Downey Savings and Loan, FA, OIG-09-039             internal assessment of the Downey failure are
(June 15, 2009)                                     implemented and that the lessons learned from
                                                    the assessment are taken into account going
OTS closed Downy and appointed the Federal          forward. In this regard, OTS should
Deposit Insurance Corporation (FDIC) as receiver
on November 21, 2008. As of May 8, 2009,                •   Direct examiners to closely review and
FDIC estimated that PFF’s failure would cost the            monitor thrifts that refuse to establish
Deposit Insurance Fund $1.4 billion.                        appropriate limits of concentrations that
                                                            pose significant risk and pursue
                                                            corrective action when concentration
                                                            limits are not reasonable.

                                                        •   Assess the need for more guidance for
                                                            examiners on determining materiality of
                                                            concentrations and determining
                                                            appropriate examiner response to high-
                                                            risk concentrations, including when to
                                                            impose absolute limits to prevent
                                                            excessive concentration

                                                        •   Formally communicate the need for a
                                                            sound internal risk management system
                                                            that includes stress testing, regular
                                                            periodic monitoring, and other risk
                                                            management tools for higher –risk
                                                            concentrations.

                                                        •   Formally communicate the guidance in
                                                            ND 06-14 as to OTS’s expectation that
                                                            concentration measurements and limits
                                                            be set as a percentage of capital, not
                                                            just as a percentage of assets or loans.




                     Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)         Page 58
Appendix 7
Management Response




Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 59
Appendix 8
Major Contributors to This Report




Boston Audit Office

Sharon Torosian, Audit Manager
Maryann Costello, Auditor-In-Charge
Timothy Cargill, Auditor
Jeanne DeGagne, Auditor
Jason Madden, Auditor

Washington, DC

Regina Morrison, Referencer




Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 60
Appendix 9
Report Distribution




The Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of Thrift Supervision

    Office of Thrift Supervision
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

Federal Deposit Insurance Corporation

    Chairman

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Comptroller General of the United States

    Acting Comptroller General




Material Loss Review of Suburban Federal Savings Bank (OIG-09-047)   Page 61
